United States
Department of
Agriculture     Office of
                Inspector General
Office of
Inspector
General

No. 43

MAY 2000        Semiannual Report
                to Congress
                FY 2000—First Half
On the cover: The eagle is used for the symbol of our law enforcement initiative “Operation Talon.” It represents the Government
swooping down to snatch fugitive felons off the streets. See inside for details of this highly successful initiative. U.S. Fish and Wildlife
Service photo.

The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis of race, color, national
origin, sex, religion, age, disability, political beliefs, sexual orientation, or marital or family status. (Not all prohibited bases apply to all
programs.) Persons with disabilities who require alternative means for communication of program information (Braille, large print,
audiotape, etc.) should contact USDA’s TARGET Center at 202-720-2600 (voice and TDD).

To file a complaint of discrimination, write USDA, Director, Office of Civil Rights, Room 326-W, Whitten Building, 1400 Independence
Avenue, SW, Washington, D.C. 20250-9410 or call (202) 720-5964 (voice and TDD). USDA is an equal opportunity provider and
employer.
                           UNITED STATES DEPARTMENT OF AGRICULTURE
                                        OFFICE OF INSPECTOR GENERAL

                                            Washington D.C. 20250




                                                                                            April 20, 2000

The Honorable Dan Glickman
Secretary of Agriculture
Washington, D.C. 20250

Dear Mr. Secretary:

I am pleased to submit the Office of Inspector General’s Semiannual Report to Congress summarizing
our activities for the 6-month period which ended March 31, 2000.

During this period, our audits and investigations yielded approximately $163 million in recoveries,
collections, restitutions, fines, claims established, costs avoided, and administrative penalties. Further,
management agreed to put more than $35 million to better use. We also identified nearly $29 million in
questioned costs that cannot be recovered. In addition, our investigations produced 241 indictments
and 208 convictions.

We are again reporting on several of our initiatives. OIG is intensifying an initiative to counteract
smuggling of animals and plants that could endanger the Nation’s food supply through the introduction of
diseases and plant pests. Cases initiated under Operation “Kiddie Care” are yielding successful
prosecutions and significant penalties. The number of arrests during Operation Talon has now topped
6,000. The recognition of that initiative’s outstanding success was recently certified when the Operation
Talon Task Force Teams won the Vice President’s prestigious Hammer Award for making Government
work better and achieving results Americans care about.

Once more, I extend my appreciation to you, the Deputy Secretary, and the Congress for your support
in furthering our mutual efforts to improve the integrity and efficiency of the Department’s programs and
operations.

Sincerely,



ROGER C. VIADERO
Inspector General

Enclosure
Contents


                                                                                                                                                                           Page
Executive Summary ...............................................................................................................................................            1
Summaries of Audit and Investigative Activities ................................................................................................                             4
Update of Initiatives
   Initiative To Counter Smuggling ...........................................................................................................................               5
   Operation Talon ...................................................................................................................................................       5
   Operation “Kiddie Care” .......................................................................................................................................           5
Public Corruption Investigations ..........................................................................................................................                  9
Workplace Violence Investigations ......................................................................................................................                    10
Farm and Foreign Agricultural Services
   Farm Service Agency ..........................................................................................................................................           11
   Risk Management Agency ...................................................................................................................................               15
Food, Nutrition, and Consumer Services
   Food and Nutrition Service ..................................................................................................................................            17
   Food Stamp Program ..........................................................................................................................................            17
   Special Supplemental Nutrition Program for Women, Infants, and Children .......................................................                                          19
Food Safety
   Food Safety and Inspection Service ....................................................................................................................                  21
Marketing and Regulatory Programs
   Agricultural Marketing Service .............................................................................................................................             22
   Animal and Plant Health Inspection Service ........................................................................................................                      22
Natural Resources and Environment
   Forest Service ......................................................................................................................................................    25
Rural Development
   Rural Housing Service .........................................................................................................................................          26
   Rural Business-Cooperative Service ...................................................................................................................                   26
   Rural Utilities Service ...........................................................................................................................................      27
Research, Education, and Economics
   Cooperative State Research, Education, and Extension Service ........................................................................                                    28
Financial, Administrative, and Information Technology
   Equal Employment Opportunity ...........................................................................................................................                 29
   Financial Management ........................................................................................................................................            30
   Information Technology .......................................................................................................................................           33
   Hazardous Materials Management Program .......................................................................................................                           33
   Government Performance and Results Act .........................................................................................................                         34
Statistical Data
   Audits Without Management Decision .................................................................................................................                     35
   Indictments and Convictions ................................................................................................................................             43
   The Office of Inspector General Hotline ..............................................................................................................                   44
   Freedom of Information Act and Privacy Act Requests .......................................................................................                              45
Appendix I: Inventory of Audit Reports Issued
   With Questioned Costs and Loans ..................................................................................................................                       46
Appendix II: Inventory of Audit Reports Issued
   With Recommendations That Funds Be Put to Better Use ............................................................................                                        47
Appendix III: Summary of Audit Reports Released Between
   October 1, 1999, and March 31, 2000 ...............................................................................................................                      48




                                                                                                                                                                                 1
Executive Summary


This is the 43rd Semiannual Report of the Office of          and was ordered to pay $13.5 million in restitution, a
Inspector General (OIG), U.S. Department of Agriculture      $10 million fine, and a special assessment of $3,150.
(USDA), pursuant to the provisions of the Inspector
General Act of 1978 (Public Law 95-452), as amended.         As of March 31, 2000, Operation Talon had resulted in
This report covers the period October 1, 1999, through       6,007 arrests of fugitive felons during joint OIG, State,
March 31, 2000.                                              and local law enforcement operations. The recognition
                                                             of that initiative’s outstanding success was recently
In accordance with the requirements of the Inspector         certified when OIG won the Vice President’s prestigious
General Act, this report describes matters relating to the   Hammer Award for making Government work better and
Department’s programs and operations which occurred          achieving results Americans care about.
during the reporting period. These include significant
problems, abuses, and deficiencies; significant              Investigative Efforts
recommendations for corrective action; prior significant
recommendations unimplemented; prosecutorial                 In a public corruption investigation in New York City,
referrals; information or assistance refused; a list of      nine Agricultural Marketing Service (AMS) employees,
audit reports; a summary of significant reports; tables on   responsible for grading the quality of fruit and
questioned costs and funds to be put to better use;          vegetables, pled guilty to bribery. In addition,
previous audit reports unresolved; significant revised       15 owners or employees of produce wholesalers,
management decisions; any significant management             located at the Hunts Point Market in the Bronx, were
decision disagreements; and a review of legislation and      indicted on bribery charges. Seven of the wholesalers
regulations.                                                 have pled guilty.

Monetary Results                                             We conducted a number of workplace violence
                                                             investigations. An Oklahoma landowner was found
During this reporting period, we issued 59 audit and         guilty by a Federal jury of assault of a Government
evaluation reports and reached management decisions          employee and second-degree murder after he shot and
on 47. Based on this work, management officials              killed his neighbor, who was assisting a Natural
agreed to recover $36.9 million and to put an additional     Resources Conservation Service (NRCS) district
$35.1 million to better use.                                 conservationist. In North Carolina, OIG agents arrested
                                                             a Farm Service Agency (FSA) borrower for threatening
We also issued 253 reports of investigation during this      to kill an FSA farm loan manager. In California, an
period. Our investigative efforts resulted in                individual was sentenced to 1 year in Federal prison
241 indictments, 208 convictions, and approximately          and 3 years’ supervised release after he was convicted
$126.4 million in recoveries, fines, restitutions, claims    of threatening Food Safety and Inspection Service
established, cost avoidance, and administrative              (FSIS) Compliance officers. The owner of a custom
penalties.                                                   meat slaughter business in upstate New York signed a
                                                             pretrial diversion agreement in U.S. District Court for
Ongoing Initiatives                                          committing an assault against an FSIS Compliance
                                                             officer. A farmer possessing numerous weapons, who
In Operation “Kiddie Care,” OIG has been working             repeatedly wrote letters to the Secretary threatening
closely with the Food and Nutrition Service (FNS)            deadly force against him or any other Government
concerning needed regulatory and legislative changes         employee who attempted to foreclose on his farm, was
for the Child and Adult Care Food Program (CACFP)            arrested by OIG special agents, confined to a medical
recommended in our August 1999 audit report. Twenty-         facility for 15 months, and later sentenced to time
six sponsors receiving over $46.7 million annually in        served after he pled guilty to threatening a Government
food and administrative funds have been terminated           official.
from CACFP. Sixty individuals have been charged with
crimes, with 45 found guilty and 37 sentenced. In a          The owner of several cotton warehouses was indicted
Michigan case previously reported, the president of a        for his scheme to defraud approximately 140 cotton
multicenter day care operation was sentenced to 9            farmers in Georgia and South Carolina. Congress
years in prison, followed by 3 years’ supervised release,    awarded a special appropriation of $5 million to be
                                                             matched by the States as reimbursement for the losses

                                                                                                                      1
sustained by the farmers. Approximately $9 million has     We identified several weaknesses in the Store Tracking,
been paid to farmers for the losses they incurred when     Authorization, and Redemption Subsystem (STARS),
this man stole their cotton.                               used to monitor and identify unauthorized FSP
                                                           payments to disqualified retailers. FNS has addressed
A former eligibility counselor with the Tennessee          certain problems and indicated that it intended to
Department of Human Services pled guilty to mail fraud     evaluate others as part of its redesign of systems in
and was sentenced to serve 18 months in a Federal          STARS II. For example, FNS has implemented new
prison, followed by 2 years’ supervised release, and       procedures for applicant data base searches in STARS,
ordered to pay restitution of $217,000. She had created    which appear to correct deficiencies related to verifying
six fictitious recipient case files and had the benefits   that applicants have not been disqualified previously
mailed to herself.                                         from the program.

A U.S. District Court judge issued a $71 million           We found that the Animal and Plant Health Inspection
summary judgment against two prominent Cleveland,          Service (APHIS) should reevaluate the level of
Ohio, area businessmen, who currently are fugitives, for   inspections in Florida. Our review of Plant Protection
illegally trafficking in food stamps and Special           and Quarantine practices for inspecting air and ship
Supplemental Nutrition Program for Women, Infants,         cargos and passengers arriving in the Miami and Fort
and Children (WIC) vouchers. The businessmen’s             Lauderdale ports identified vulnerabilities and
attorney made an out-of-court settlement, under which      weaknesses, which increased the risk of prohibited
the attorney and his law firm paid the Government          agricultural products entering the United States. We
$275,000 for their involvement in the fraud.               made a series of recommendations, including the
                                                           assessment of penalties when warranted and the
In New Hampshire, an investigation determined that a       evaluation of higher fee rates for inspections to provide
multinational corporation based in Munich, Germany,        for sufficient staff and resources.
submitted false Confidential Statements of Formula to
FSIS to obtain food-grade approval for their lubricants,   Our review disclosed that the Urban Resources
which are used in the food-processing industry, and        Partnership (URP) program was initiated without
violated provisions of the Toxic Substance Control Act.    specific statutory authority or congressional
The company was placed under pretrial supervision for      appropriations. In addition, cities/areas were not
18 months and will pay a total of $2.3 million.            selected to participate in URP on a competitive basis,
                                                           URP recipients did not always use funds to meet the
Audit Efforts                                              purposes of the applicable statutes from which the
                                                           appropriations were obtained, and the program did not
We reviewed implementation of the State Option Food        include controls to ensure that award funds were used
Stamp Program (SOFSP) in five States and identified        in accordance with applicable Federal regulations.
internal control deficiencies, which required corrective
actions by FNS and the States reviewed. We issued          Systemic internal control deficiencies existed in the
management alerts to the four FNS regional offices, but    Virginia Rural Development State office administrative
their initial corrective actions were inconsistent. We     procurement operations regarding the purchase,
recommended that FNS take immediate action to              authorization, and/or receipt of goods and services. As
address the accounting and reporting deficiencies, issue   a result, miscellaneous payments of about $286,000
clarifying guidance to State agencies, and recover         were unsupported due to one or more documentation
invalid Food Stamp Program (FSP) expenditures.             errors, and 35 purchase orders, approximating
                                                           $235,000, lacked supporting documentation. Certain
                                                           questionable payments are under investigation.




2
As part of our continuing reviews, we found that the        Our review disclosed material internal control
Office of Civil Rights (CR) remains an inefficient          weaknesses in the Office of the Chief Information
manager of both Equal Employment Opportunity (EEO)          Officer/National Information Technology Center (OCIO/
discrimination complaints and program complaints. We        NITC) security structure. Consequently, we issued a
emphasized that CR needs to design and implement a          qualified opinion to OCIO/NITC in terms of controls over
long-term plan to ensure it can resolve complaints          protection of the OCIO/NITC network, network security
efficiently and with due care. We also urged CR to          monitoring and intrusion detection, specified network
expedite implementation of a new EEO complaints             security procedures, and access authorities for
tracking system and its installation of a new program       authorized users. OCIO agreed with all our
complaints data base.                                       recommendations and has initiated corrective actions.

Our disclaimer of opinion for USDA’s FY 1999                Our ongoing audit work relating to information
consolidated financial statements (and for the last 6       technology (IT) security in the Department identified a
years) means that the Department, as a whole, does not      material internal control weakness. Departmental
know whether it correctly reported monies to be             regulation requires that Privacy Act or sensitive data be
collected in total, how much money is collected, the cost   encrypted if the information is sent over the Internet, but
of its operations, or any other meaningful measure of       actions to implement and/or enforce this critical
financial performance. The Department has recognized        requirement have been limited. The Department could
the need to improve its financial systems and created       be vulnerable to inadvertent or deliberate disclosures of
the Financial Information System Vision and Strategy        sensitive data. OCIO concurred with the
Project Team to develop the financial systems,              recommendations. The Department has established an
standards, and definitions necessary to implement the       IT security program and is taking steps to implement
Department’s new accounting system, the Foundation          data encryption and to strengthen access security
Financial Information System.                               mechanisms.




                                                                                                                      3
    Summary of Audit Activities

Reports Issued .................................................................................................................................................        59
    Audits Performed by OIG ...............................................................................                    40
    Evaluations Performed by OIG .......................................................................                        9
    Audits Performed Under the Single Audit Act.................................................                                3
    Audits Performed by Others ...........................................................................                      7

Management Decisions Made
  Number of Reports ........................................................................................................................................          47
  Number of Recommendations .......................................................................................................................                  344

Total Dollar Impact (Millions) .......................................................................................................................... $100.8
  Questioned/Unsupported Costs ............................................................................................. $65.7ab
     Recommended for Recovery .......................................................................... $36.9
     Not Recommended for Recovery ................................................................... $28.8
  Funds To Be Put to Better Use .............................................................................................. $35.1
a
    These were the amounts the auditees agreed to at the time of management decision.
b
    The recoveries realized could change as the auditees implement the agreed-upon corrective action plan and seek recovery of amounts recorded
    as debts due the Department.



    Summary of Investigative Activities

Reports Issued ...................................................................................................................................................   253
Cases Opened ...................................................................................................................................................     298
Cases Closed .....................................................................................................................................................   382
Cases Referred for Prosecution .........................................................................................................................             171

Impact of Investigations
  Indictments ....................................................................................................................................................      241
  Convictions ....................................................................................................................................................      208 a
  Searches ........................................................................................................................................................      81
  Arrests ........................................................................................................................................................... 1,685 b

Total Dollar Impact (Millions) .......................................................................................................................... $126.4
  Recoveries/Collections ..........................................................................................................             $5.3c
  Restitutions ............................................................................................................................    $24.7d
  Fines ...................................................................................................................................... $91.2e
  Claims Established ................................................................................................................           $3.0f
  Cost Avoidance ......................................................................................................................         $2.1g
  Administrative Penalties ........................................................................................................             $0.1h

Administrative Sanctions
  Employees ..................................................................................................................................................... 43
  Businesses/Persons ...................................................................................................................................... 2,498

a
  Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely;
  therefore, the 208 convictions do not necessarily relate to the 241 indictments.
b
  Includes 1,206 Operation Talon arrests and 479 arrests not related to Operation Talon.
c
  Includes money received by USDA or other Government agencies as a result of OIG investigations.
d
  Restitutions are court-ordered repayments of money lost through a crime or program abuse.
e
  Fines are court-ordered penalties.
f
  Claims established are agency demands for repayment of USDA benefits.
g
  This category consists of loans or benefits not granted as the result of an OIG investigation.
h
  Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.




4
Update of Initiatives


We are again reporting on several of our initiatives. OIG       Arrests Continue To Climb in Presidential
is continuing to work on an initiative to counteract            Initiative Operation Talon
smuggling of animals and plants that could endanger
the Nation’s food supply through the introduction of            Operation Talon was designed and implemented by
diseases and plant pests. The number of arrests during          OIG to locate and apprehend fugitives, many of them
Operation Talon continues to climb. Cases initiated             violent offenders, who are current or former food stamp
under Operation “Kiddie Care” are resulting in                  recipients. As of March 31, 2000, Operation Talon had
successful prosecutions and significant penalties.              resulted in 6,007 arrests of fugitive felons during joint
                                                                OIG, State, and local law enforcement operations, as
Initiative To Counter Animal and Plant                          detailed in Figure 1.
Smuggling
                                                                Operation “Kiddie Care” Roots Out
OIG is continuing to establish cases under its initiative       Unscrupulous Sponsors
to counteract smuggling of animals, plants, and
agricultural products. Smuggling is an increasingly             We are reporting further successes in Operation “Kiddie
serious problem to American agriculture because of the          Care,” our nationwide initiative to identify, remove, and
pests and diseases inadvertently introduced. Such               prosecute unscrupulous Child and Adult Care Food
illegal activities can cost billions of dollars in destroyed    Program (CACFP) sponsoring organizations (sponsors).
crops, undermined agricultural markets, and lost jobs.          OIG has been working closely with FNS concerning
Pests and diseases that threaten the United States              needed regulatory and legislative changes
through smuggling include insects (Mediterranean,               recommended in our August 1999 audit report.
oriental, and Mexican fruit fly), livestock diseases            Meanwhile, the cases of serious deficiencies and
(bovine spongiform encephalopathy and brucellosis),             criminal activities mount, and successful prosecutions
avian and plant diseases, and noxious weeds. We                 have resulted in significant penalties.
currently have 37 smuggling cases under investigation.




              Figure 1
              Operation Talon - Total for All Phases

                       Offense                Total Arrests        Offense           Total Arrests

                        Murder                      21            Kidnapping               10

                  Attempted Murder                  19              Assault                344

                  Child Molestation                 27             Robbery                 228

                         Rape                       12              Drugs                 1,449

                   Attempted Rape                    2               Other                3,895

                                                    Total Arrests: 6,007




                                                                                                                        5
• Twenty-six sponsors receiving over $46.7 million          of supervised release to include 5 months of home
  annually in food and administrative funds have been       confinement. Each was fined $10,000 and ordered
  terminated from CACFP. Forty-six sponsors                 to pay a total of $55,000 in restitution.
  receiving over $82 million annually are subject to
  termination from CACFP unless they correct serious      • An OIG audit disclosed that a Seattle, Washington,
  program deficiencies.                                     sponsor lacked documentation to support almost
                                                            $250,000 in salary and other costs it paid two of its
• Forty-three investigations are completed or ongoing.      monitors. An OIG investigation further disclosed that
  Sixty individuals have been charged with crimes, with     the two monitors falsified numerous records to
  45 found guilty and 39 sentenced.                         document fictitious monitoring visits. The sponsor
                                                            fired the two monitors, the director resigned, and the
Audits and investigations concluded this reporting          organization, which sponsored over 400 day care
period yielded dramatic results.                            providers, was terminated from further participation in
                                                            any child nutrition program.
• In a Michigan case previously reported, the president
  of a multicenter day care operation was sentenced to      One of these monitors was also a day care provider,
  9 years in prison, followed by 3 years’ supervised        who worked with her daughter. Together, they
  release, and was ordered to pay $13.5 million in          falsified applications and monthly claims in order to
  restitution, a $10 million fine, and a special            receive excessive CACFP payments as providers.
  assessment of $3,150. The jury also had awarded           The daughter also submitted false claims in order to
  forfeiture of over $1.1 million in cash and three         receive rental assistance payments from USDA’s
  properties. The owner and an assistant defrauded          Rural Housing Service (RHS) and food stamps and
  USDA of approximately $27 million in CACFP funds.         other welfare payments from the State of
  Sentencing is pending for the assistant .                 Washington. After pleading guilty, the mother was
                                                            sentenced to 2 months in prison along with 2 months
• We previously reported on a California sponsor that       of home confinement and was ordered to pay
  defrauded CACFP by filing false claims for day care       restitution of $11,000. The daughter was sentenced
  homes no longer participating in the program. The         to 60 days of home confinement and ordered to pay
  two owners/operators (a husband and wife) have            $7,300 in restitution.
  now pled guilty to defrauding CACFP of over
  $340,000. The wife was sentenced to 18 months in        • Our Summer Food Service Program (SFSP) audit
  prison to be followed by 3 years’ probation. The          found that a Nevada sponsor disregarded program
  husband was placed on probation for 1 year, to            rules and regulations governing SFSP and may have
  include 80 hours of community service. They were          been intentionally inflating its meal claims, using the
  also ordered to pay $320,000 in restitution and           income for unallowable expenditures. Also, the
  terminated from further participation in any child        sponsor failed to report program income and obtain
  nutrition program. Three of the sponsor’s former          required audits. We questioned over $1 million in
  employees pled guilty to related charges. All were        costs. The sponsor was terminated from SFSP, and
  sentenced to 5 years’ probation and 90 days’ home         its CACFP application for FY 2000 was not renewed.
  detention, and each was ordered to pay USDA               This sponsor was receiving approximately $1.5
  $12,000 in restitution.                                   million from SFSP and $100,000 from CACFP
                                                            annually.
• Also in California, the husband and wife who owned
  and operated a facility were sentenced for mail fraud   • Another OIG audit disclosed that a Denver, Colorado,
  involving over $85,000 in CACFP funds. The                sponsor appeared to be seriously deficient in its
  husband was sentenced to 1 month in prison,               administration of the program. The sponsor did not
  followed by 2 years of supervised release to include      follow Federal or State program regulations in its
  5 months of home confinement. The wife was                claims for provider reimbursement and administrative
  sentenced to 5 months in prison, followed by 2 years      costs or in its disbursement of reimbursement to




6
providers. The sponsor wrote approximately             • A husband and wife who owned and operated a Utah
$132,000 in reimbursement payments to providers          sponsorship pled guilty to defrauding CACFP by
for periods prior to their being approved to             making false statements and embezzling CACFP
participate. Based on this, the sponsor improperly       funds. The couple, who ran the day-to-day operation
received over $35,000 in administrative costs. The       of the sponsorship, diverted approximately $120,000
sponsor also processed provider claims totaling over     from a meal claim reimbursement account to their
$96,000 even though the claims were received past        own accounts. As part of their scam, the couple
the deadline. The sponsor improperly received over       demanded kickbacks from day care providers under
$17,000 in administrative costs based on the             their sponsorship in exchange for reimbursement
improper claims. In addition, the sponsor claimed        checks. Many of the program recipients were
and received $29,000 in administrative costs not         immigrant families living in run-down trailer parks and
supported by receipts or similar documentation.          small, ramshackle wood-frame houses. Two
                                                         monitors, who were working in concert with the
The sponsor’s computer system processed almost $1        couple, have also pled guilty. One of the monitors
million in reimbursements monthly but was not            was sentenced to 3 years’ probation (with credit for
secured by logons or passwords. The methods of           time served in a halfway house) and was ordered to
handling money rendered its financial system             pay restitution of nearly $3,700 to USDA. Sentencing
inadequate to account for both administrative and        of the other individuals is pending.
provider funds. The sponsor transferred money
among its CACFP food accounts for day care homes       Figure 2 shows the status of our investigations, as of
and centers, administrative cost account, and a non-   March 31, 2000.
CACFP account to cover shortages in the various
accounts.




                                                                                                                7
Figure 2
Status of Investigations of Sponsors and Providers as of March 31, 2000

                                                                                                    Individuals        Individuals
                                                                                 Sponsors           Indicted or         Who Pled
                                                  Audits                        Terminated          Named in a           Guilty or
                                         Audits     in                           From the             Criminal            Were           Individuals
        State1          Investigations Completed Progress                        Program           Information2         Convicted        Sentenced

    Alabama                                          1
    Arizona                      1                   2                                                    1                   1                1
    Arkansas                                         1
    California                   8                   9                                 6                 21                  19                17
    Colorado                     1                   1
    Florida                      2                   1                                 2                  2                   2                2
    Georgia                      4                                                     3
    Idaho                        1                                                     1                  1                   1                1
    Illinois                                         3               1
    Louisiana                    2                   2               1                 1
    Maine                                            1                                 1
    Michigan                     1                                                     1                  2                   1                1
    Mississippi                                      1
    Missouri                                         1
    Nevada                                                                            13
    New Mexico                   7                   1                                                    9                   2                2
    New York                     3                   1               1                 1                  1                   1                1
    North Carolina                                   1
    Ohio                         2                   2                                 1                 12                  10                10
    Oregon                                           1                                 1
    Pennsylvania                 3                   1                                 2                  14                 14
    Tennessee                    3                                                     2                  3                   1                1
    Texas                        1
    Utah                         1                   2                                 1                  4                   3
    Washington                   2                   1                                 1                  2                   3                3
    Wisconsin                    1                   2                                 1                  1
    TOTALS                       43                 35               3                26                 60                  45                39
    1
      Five audit surveys were also performed in Arkansas, California, Illinois, and Indiana, but the findings did not warrant audit reports.
    2
      An information is a formal accusation of a crime made by a prosecuting officer, as differentiated from an indictment by a grand jury.
    3
      This sponsor was terminated from CACFP based on our audit of the sponsor’s Summer Food Service Program.
    4
      The subject died before sentencing, and the conviction was dismissed.


8
Public Corruption Investigations


A top priority for OIG is the investigation of serious                   NRCS Employee Pleads Guilty to Possession
allegations of employee misconduct. During the past                      of Unregistered Destructive Devices
6 months, such investigations resulted in 18 convictions
of current or former USDA employees and 43 personnel                     A search warrant executed at the residence of a Natural
actions. Some recent investigations follow.                              Resources Conservation Service (NRCS) employee by
                                                                         Bureau of Alcohol, Tobacco, and Firearms (BATF)
Corruption Uncovered at Hunts Point Market                               special agents revealed 58 pipe bombs, bomb-making
                                                                         material, a firearm silencer, and a land mine. At the
In New York City, nine AMS employees, responsible for                    request of the U.S. attorney’s office, OIG was called in
grading the quality of fruit and vegetables, pled guilty to              to assist BATF with the investigation. The resulting joint
bribery. In addition, 15 owners or employees of                          investigation included extracting data from the
produce wholesalers, located at the Hunts Point Market                   employee’s Government computer and searching for
in the Bronx, were indicted on bribery charges. Seven                    additional explosive devices at the workplace with
of the wholesalers have pled guilty. During the 21/2-year                bomb-sniffing dogs. The employee pled guilty to
investigation, we uncovered a scheme by which the                        possessing destructive devices (pipe bombs) and is
AMS graders accepted bribes from wholesalers to                          awaiting sentencing.
downgrade produce. The wholesalers then used the
lower grades to negotiate downward the price they paid                   Former NRCS Employee Pleads Guilty to
the grower for the produce. Our investigation also                       Embezzling Funds
revealed that the AMS graders were involved in a
corrupt organization by which they received money from                   A former NRCS secretary in Colorado pled guilty to
the wholesalers and then paid the AMS night                              embezzling approximately $23,600 in Rural
supervisor, who made their work assignments, a                           Conservation and Development (RC&D) funds. Our
kickback of $100 per week from each grader.                              investigation disclosed that the employee embezzled
                                                                         the funds by issuing checks to herself and altering them
                                                                         once they were returned by the bank. She admitted to
                                                                         embezzling the funds and to forging RC&D council
                                                                         members’ names on the checks. The employee was
                                                                         terminated from her NRCS position in April 1999.
                                                                         Sentencing is pending.

                                                                         FS Employee Convicted of Embezzlement

                                                                         In New Mexico, a former Forest Service (FS) employee
                                                                         pled guilty to embezzling Government funds while
                                                                         employed with FS. She was sentenced to 4 months of
                                                                         home confinement with electronic monitoring, placed on
                                                                         probation for 3 years, fined $4,000, and ordered to pay
                                                                         restitution of nearly $300. Our investigation disclosed
                                                                         that the former employee, while employed as a
                                                                         business management officer, used a Government
                                                                         credit card to purchase over $8,500 in household goods
                                                                         and groceries for personal use. The employee and her
Airborne view of Hunts Point Market indicates its vast extent. Federal
                                                                         husband, who was employed as a forestry technician,
Bureau of Investigation (FBI) photo.                                     both subsequently resigned and repaid FS $6,000 for
                                                                         the illegal credit card charges.




                                                                                                                                  9
Workplace Violence Investigations


Oklahoma Landowner Found Guilty of                           Custom Meat Slaughterer Signs Pretrial
Second-Degree Murder and Assault                             Diversion for Assault on USDA Employee

An Oklahoma landowner was found guilty by a Federal          The owner of a custom meat slaughter business in
jury of assault of a Government employee and second-         upstate New York signed a pretrial diversion agreement
degree murder. The man shot and killed his neighbor,         in U.S. District Court for committing an assault against a
who was assisting an NRCS district conservationist.          Federal employee. The owner of the slaughter
The NRCS employee and the murdered landowner                 business admitted he was holding a scraping knife with
were checking on damage to fencing around a wetlands         an 8-inch blade when he confronted an FSIS
area enrolled in the Wetlands Reserve Program when           Compliance officer. He became agitated during the
the owner of the adjacent property rode up to them on        conversation and began motioning with his hands while
horseback and began arguing. The man then pulled out         still holding the knife. Prosecution was deferred for
a shotgun, killed the neighbor, and held the NRCS            1 year provided the individual abided by the conditions
employee at gunpoint. This case was conducted jointly        and requirements set by the pretrial diversion program.
with the Oklahoma State Police with assistance from the      In addition, FSIS issued a warning letter and planned to
FBI.                                                         monitor the facility.

Individual Arrested for Threatening USDA                     Individual Pleads Guilty to Threatening
Employee                                                     Secretary of Agriculture

In North Carolina, OIG agents arrested an FSA                A farmer repeatedly wrote letters to the Secretary
borrower for threatening to kill an FSA farm loan            threatening deadly force against him or any other
manager in an attempt to impede and intimidate him in        Government employee who attempted to foreclose on
the performance of his official duties. The subject had      his farm. This individual was arrested by OIG special
previously made threats against the manager and had          agents in January 1999 and confined to a medical
been warned by OIG agents against future threats. The        facility for psychiatric evaluation. At the time of arrest,
subject has been placed in a pretrial diversion program.     he was carrying a semiautomatic pistol and shotgun in
                                                             his vehicle. An OIG search of his home found five
Man Convicted of Threatening FSIS                            shotguns, three .22 caliber rifles, ammunition, and a gas
Employees                                                    mask placed at various doors and windows throughout
                                                             the house. On March 1, 2000, this individual pled guilty
In California, an individual was sentenced to 1 year in      to threatening a Government official and was sentenced
Federal prison and an additional 3 years of supervised       to time served, which was 15 months.
release after he was convicted of threatening FSIS
Compliance officers. In July 1999, shortly after he had
a confrontation with two FSIS Compliance officers at a
custom slaughter facility, the individual’s vehicle almost
ran their vehicle off the road. When confronted by OIG,
the individual denied that the near accident had been
deliberate on his part. In September 1999, he
contacted OIG and stated that he was considering
getting a gun and shooting the Compliance officers at
the slaughter facility. He was subsequently detained
and placed in a mental health facility for observation.
Upon release, he was transferred to a Federal detention
facility. He was later indicted for the threats and was
convicted after a trial.




10
Farm and Foreign Agricultural Services


                                                             producer, rather than separately as required to qualify
 FARM SERVICE AGENCY (FSA)
                                                             for the program payments in question.

FSA supports American farmers, and ultimately                We recommended that FSA determine whether the
consumers, through commodity and disaster programs,          eight producers participated in schemes or devices to
loans, conservation, and food assistance. The fiscal         evade the maximum payment limitation provisions for
year (FY) 2000 budget is estimated at over $4.2 billion      program years 1990 and 1991 and, if so, recover the
in funds available directly to FSA. The Commodity            overpayments. FSA agreed with the findings; however,
Credit Corporation (CCC), a Government corporation,          as a result of the determinations associated with the
funds all other program operations at an estimated           previous report, the producers and their attorney have
$19.5 billion.                                               entered into settlement negotiations for program years
                                                             1992 and 1993 with USDA’s Office of the General
Eight Georgia Producers Fraudulently Obtained                Counsel (OGC). FSA believes that the settlement could
Program Payments                                             encompass the 1990 and 1991 issues as well.

Eight producers from Thomas County, Georgia,                 Emergency Conservation Program (ECP) Needs
appeared to have participated in schemes or devices          Improvement
designed to avoid maximum payment limitation
provisions for program years 1990 and 1991. The eight        Audit work performed in nine States found that FSA did
producers provided misleading information to FSA             not have internal controls in place to ensure ECP funds
about their farming operations and, therefore, did not       were being used for eligible projects, resulting in $2.9
qualify for just over $661,000 they received in FSA          million in unsupported payments. Findings included the
program payments.                                            following.

Our review was delayed several years because the             • FSA’s spot-checks did not always include steps to
producers did not cooperate in providing us with the           identify improprieties, and, in many cases, agency
information needed. During 1993, OIG issued                    personnel were themselves unclear on the
administrative subpoenas to obtain records for the             procedures to follow.
producers’ 1990 and 1991 farming operations.
However, it was not until 1999 that OIG finally obtained     • Some producers had not maintained the practices
sufficient records to conduct the review.                      funded by ECP payments.

The review was a continuation of a prior audit of the        • Certain county offices allowed the cost of personal
Disaster Assistance Program in Thomas County,                  labor, while others did not, and some producers
Georgia, for program years 1992 and 1993 in which we           received reimbursement from FSA but did not pay
questioned payments totaling about $1.2 million for the        the entire vendor bill or negotiated a discount that
same eight producers. In October 1998, the Georgia             was not disclosed to FSA.
State FSA Committee found that the eight producers did
participate in schemes or devices to evade maximum           • Computational errors were occurring, and county
payment limitation provisions for program years 1992           offices were not following the proper application
and 1993. FSA is working to recover the overpayments.          approval process.

Similar to our prior audit findings, in our present review   • Some county offices were not always using the ECP
we found that the eight producers used schemes or              application form as intended, which contributed to
devices to evade maximum payment limitation                    errors and gave the appearance that some practices
provisions for program years 1990 and 1991. They               had not been approved.
received questionable FSA program payments totaling
just over $661,000 during that period. The eight             We recommended that the FSA national office finalize
producers, whose farming operations consisted of four        updating the ECP handbook and develop instructional
individuals and four corporations, operated as one           material that could be used to train key people
organization, essentially influenced by a principal          whenever the program is authorized. We further



                                                                                                                       11
recommended that FSA strengthen handbook                   Attempt To Conceal the True Nature of Farming
procedures and require additional oversight by district    Operation Costs Producer Over $300,000
directors. Also, FSA should review those cases where
there was a maintenance default or inaccurate              At the request of the Louisiana State FSA office, we
information and determine if the producer should be        reviewed the operation of a joint venture consisting of
required to make repayment with interest or penalty.       six corporate entities, whose stockholders were a father,
                                                           two daughters, and a hired foreman, to determine if
FSA generally concurred with the findings and is           payment limitation provisions of the Agricultural Market
proposing changes to ECP in an interim rule currently      Transition Act (AMTA) were violated. We found the joint
under review. Upon completion of the new rule, the         venture did not exercise separate responsibility for its
handbook procedures will also be amended.                  interest in the crops or maintain funds or accounts
                                                           separate from that of any other individual or entity.
Ineffective Controls Provided Environment for              Members of the joint venture were not actively engaged
Embezzlement Scheme                                        in farming because they were not at risk for their 1996
                                                           and 1997 contributions to the farming operation.
An OIG investigation of alleged embezzlement by a
program assistant in an FSA county office prompted an      Specific problems identified included nonpayment of
examination of internal controls over administrative       $406,000 in cash rent to a limited-liability company
program operations. We found that internal controls        owned by trusts established for the two daughters,
needed enhancement to reduce the potential for             involving numerous questionable loans and money
misappropriation of funds through manipulation of          transactions. By the end of 1997, the father and
checkwriting software features, to increase the analysis   daughters had realized a net benefit of almost $400,000
of available computer queries, and to properly separate    from these transactions during 1996 and 1997. We
duties and second-party reviews, which would have          concluded that the father attempted to evade payment
prevented or allowed to be detected the embezzlement       limitation provisions by concealing and/or submitting
of administrative funds. The weak controls allowed a       erroneous information about his true interest in the
program assistant to perpetrate a relatively               farming operation. This would have affected FSA’s
unsophisticated embezzlement scheme that obtained          “person” determination and the production flexibility
about $275,000 over 7 years.                               contract (PFC) payments for 1996 through 2002 under
                                                           the AMTA program.
We recommended that the agency reinforce to the
States and counties the policies and procedures for        We recommended FSA determine whether a scheme or
allocating, budgeting, and monitoring expenses. Also,      device was knowingly adopted to evade payment
we recommended FSA handbook information be                 limitation provisions and/or defeat the purpose of the
amended to specifically define actions expected of         AMTA program. If so determined, we recommended
employees responsible for reviewing, verifying, and        recovery of over $750,000 in 1996 through 1999 PFC
ensuring the proper use of funds and to require that a     payments and termination of the remaining 3 years of
second party research and complete corrective actions      the contract (a savings of about $509,000).
for expense transaction exception reports. We further
recommended that the agency establish additional           The Louisiana State FSA Committee did not determine
control features to address other potential vulnerable     that a scheme had been adopted to defeat the purpose
areas and make use of computer software capabilities.      of the AMTA program. However, it did determine a
FSA generally concurred and is addressing the              scheme was adopted in 1996 to evade payment
recommended corrective action.                             limitation provisions and will recover about $318,000 in
                                                           1996 and 1997 PFC payments from the joint venture.




12
FLP Loan-Servicing Actions in General Compliance             Controls Over Environmental Benefits Index Scores
With FAIR Act                                                Need Continued Improvement

The Federal Agriculture Improvement and Reform               Under the Conservation Reserve Program (CRP),
(FAIR) Act of 1996 imposed several restrictive               producers receive annual payments from FSA to take
loanmaking and loan-servicing policies on the Farm           highly erodible cropland out of production and establish
Loan Program (FLP). The act prohibited (after April 4,       and maintain a vegetative cover on it. The tracts of land
1996) an individual or entity from receiving more than       are scored according to values on the Environmental
one instance of debt forgiveness.                            Benefits Index (EBI). FSA, with assistance from NRCS,
                                                             has overall responsibility for CRP.
Our review did not identify material program deficiencies
or control weaknesses; therefore, we did not expand the      Our previous review of Signup 15 found that the
survey into the audit phase but summarized our results       controls over EBI scores could be improved. We found
in a brief report. We reported that of the 24 debt           that the complexity of EBI continued to cause scoring
forgiveness decision cases reviewed, no improprieties        problems during Signup 16. FSA and NRCS took action
were noted with the 13 reviewed in Oklahoma and              to address those weaknesses.
Texas. However, in 3 of the 11 cases reviewed in
Louisiana, borrowers received improper debt                  During this period, we addressed concerns FSA and
forgiveness decisions totaling $194,000.                     NRCS officials expressed about the high approval rate
                                                             for appeals filed in conjunction with CRP Signup 15.
We also noted the Louisiana and Texas State FSA              We identified errors in the revised EBI scores for 39 of
executive directors inadvertently exceeded their             the 70 offers reviewed. Of the 39 offers with errors, 29
authorities by approving debt settlements for two            were incorrectly accepted for the program, with
borrowers in each State whose outstanding                    scheduled program benefits totaling about $2 million
indebtedness exceeded $100,000. The writeoffs totaled        over the life of the CRP contracts. FSA State office
almost $580,000 and were improper because all                reviews of appealed offers did not always detect errors
applications for settlements, with outstanding               in the revised EBI scores, and those scores revised as a
indebtedness in excess of $100,000, were to have been        result of producer appeals were not subjected to the
referred through OGC to the U.S. Department of Justice       automated validation routines. In response to our
(DOJ) for approval. Although the State executive             recommendations, FSA and NRCS agreed to provide
directors exceeded their authorities in approving the        for joint agency spot-checks of offers with EBI scores
debt settlements, we found no information in the case        that are revised after the date of initial offer acceptance.
files indicating the decisions to debt-settle the accounts   This includes a final validation of any EBI scoring
were unjustified.                                            changes made after transmission of the original offer
                                                             data.
We recommended FSA, in accordance with agency
instructions, and, as applicable, through consultation       During this period, for Signup 18, we found EBI scoring
with OGC, initiate the appropriate action to collect the     errors on 37 of 80 offers reviewed, similar to the rates
$194,000 which resulted from improper debt                   for Signups 15 and 16. To help identify trends and
forgiveness provided to the three Louisiana borrowers.       inconsistent applications of factors, FSA developed
Further, we recommended that FSA refer the four              computer-generated maps showing average EBI scores
improperly settled cases to DOJ for review and               by factor and subfactor. These maps were accessible
approval. Agency officials concurred with our findings       by State offices to assist in identifying inconsistent
and agreed to implement our recommended course of            trends during Signup 18.
action within 12 months.




                                                                                                                      13
However, the maps were not effectively used to identify       farmers. Approximately $9 million has been paid to
and follow up on apparent scoring inconsistencies             farmers for the losses they incurred when this man stole
across State and county lines. Also, consistency was          their cotton.
not provided when interpreting point scores for
threatened and endangered species that were common            Three in Georgia To Serve Time, 11 Others Enter
to more than one State.                                       Pretrial Diversion

We recommended that FSA and NRCS explore                      Three South Georgia farmers who masterminded a
alternatives for simplifying and clarifying the EBI scoring   disaster fraud scheme that netted them approximately
process and implement additional controls to ensure the       $1.6 million in unentitled FSA disaster payments began
reasonableness of EBI scores. We also recommended             serving Federal prison terms in January. The three
that the joint agency working group develop a                 enlisted a number of their relatives and friends to sign
framework for analyzing the computer-generated maps           up for disaster payments to which they were not
as a tool to further enhance program operations. In           entitled. Once FSA disbursed the disaster funds to the
addition, we recommended that NRCS establish the              named individuals, they turned the monies over to the
specific habitat requirements needed to obtain the            three ringleaders. As part of a negotiated plea
maximum threatened and endangered species points              agreement with the U.S. attorney’s office, the three
for species that were common to more than one State.          main subjects each agreed to serve 1 year in Federal
                                                              prison and pay restitution of approximately $442,000.
FSA concurred that the continuing high level of errors        Their 11 relatives and friends were allowed to enter
was unacceptable. NRCS indicated that efforts were            pretrial diversion programs since it was determined that
under way to automate the EBI calculations, which             they had not benefited financially from the scheme.
should help to significantly reduce errors and provide
accuracy. Both agencies will explore what actions may         Sentencing for Forgery and Grand Theft
be necessary to reduce the error rate, including
analyses of maps showing trends and inconsistencies           A Wooster, Ohio, farmer was sentenced to pay $57,000
across State and county boundaries.                           in restitution and 5 years’ probation after he pled guilty
                                                              to forgery and grand theft charges. Our investigation
Cotton Warehouse Owner Indicted for Cotton Fraud              showed the farmer submitted two forged documents
Scheme                                                        with his application for two farm-stored commodity
                                                              loans. The farmer also falsely certified the amount of
The owner of several cotton warehouses was indicted           corn and soybeans he had in storage on which he gave
for his scheme to defraud approximately 140 cotton            FSA a security interest. After he received FSA loans
farmers in Georgia and South Carolina through mail and        totaling almost $60,000, he converted most of the
wire fraud, interstate transportation of stolen property,     stored grain to his own use, feeding his own dairy herd
and money laundering. OIG’s investigation disclosed           with it and selling it in his son’s name to avoid the
that the warehouse owner gambled that the price of            security interests on file against his grain. Our
cotton would rise when he contracted to purchase              investigation also revealed that the farmer had pledged
millions of dollars in cotton from farmers without            the same crops to two other private creditors for loans.
offsetting the purchases with sales to cotton mills.
When the price fell instead, the owner became unable          Five Texans Enter Into Civil Settlements for False
to pay the farmers under contract. He then began to           Disaster Claims
steal cotton that was stored in his company’s
warehouses and illegally sold it to other cotton mills and    Five Texans entered into civil settlement agreements to
merchants as his own. He also knowingly sold                  avoid civil prosecution stemming from their involvement
mortgaged cotton without the permission of the farmer         in submitting false receipts in support of loss claims in
or lien holder. His company and warehouses have filed         the Disaster Assistance Program. Their combined fines
for bankruptcy. Congress awarded a special                    totaled over $200,000. These investigations were the
appropriation of $5 million to be matched by the States       result of an OIG/Audit referral, and the investigations
as reimbursement for the losses sustained by the              were worked jointly with OIG/Audit.




14
Two Texas Businessmen Conspired To Defraud the               Controls Over Risk Fund Changes and Acceptance
Emergency Feed Program                                       of Crop Yields Needed Strengthening

Two Texas businessmen have agreed to plead guilty to         OIG conducted this audit to evaluate controls over crop
conspiracy to submit false feed receipts under the           insurance risk fund changes made by reinsured
Emergency Feed Program (EFP). They received about            companies after the final date authorized for such
$172,000 in EFP payments based on the false receipts         changes and the acceptance of crop yields submitted by
submitted. Bills of information were recently filed          reinsured companies. RMA did not have effective
against them.                                                controls and procedures in place to prevent or detect
                                                             unauthorized risk fund changes and protect the
Former Arkansas Sheriff Sentenced for Loan Fraud             accuracy and reliability of crop yields in its data bases.
                                                             The control weaknesses have resulted in program
As previously reported, a former Arkansas county sheriff     losses to FCIC and the use of inflated crop yields for
had been indicted for furnishing false statements            insurance purposes.
concerning a $121,000 FSA loan. The sheriff was
supposed to use the loan to pay debts to a bank and          One reinsured company improperly transferred losses
raise a 1996 crop but used over $44,000 in FSA loan          on its 1994 multiple-peril crop insurance (MPCI) raisin
proceeds to pay off campaign debts and did not grow          policies to FCIC without RMA’s knowledge. This
any crops. The former sheriff has now been sentenced         occurred when RMA permitted the reinsured companies
in Federal court to 4 months’ home confinement,              to change their annual plans of operation in 1995 to
followed by 5 years of supervised release, and ordered       accommodate the new catastrophic risk plan of
to make restitution of nearly $103,700. This                 insurance. However, RMA did not establish controls to
investigation was worked jointly with the FBI.               ensure that the companies did not make unauthorized
                                                             changes or use excessive adverse risk selection
Federal Jury Finds Individual in Mississippi Guilty          practices. One reinsured company improperly shifted
of Conversion, Other Violations                              about $6 million in underwriting losses to FCIC.

A Federal jury found a Mississippi farmer guilty of          RMA’s separation of duties over the approval of fund
conversion of FSA-mortgaged collateral, money                designation changes was not adequate. The Data
laundering, and crop insurance fraud. The farmer had         Quality Section, responsible for RMA’s data bases, can
pledged his 1996 cotton and soybean crop to FSA for a        accept and approve fund designation changes
total of $461,000 in loans but then illegally converted it   requested by reinsured companies without the approval
to his own use. The farmer also submitted false              of RMA’s Reinsurance Services Division because RMA
statements to obtain crop insurance for a 1994 claim in      has not clearly designated one division to approve all
excess of $18,000. Sentencing is pending.                    fund designation changes. Weak controls also caused
                                                             RMA to maintain inflated crop yields for some farms in
                                                             its data bases used to deliver MPCI programs, which
 RISK MANAGEMENT AGENCY (RMA)
                                                             potentially may inflate MPCI program statistics and
                                                             influence RMA’s actuarial tables.
RMA supervises the Federal Crop Insurance
Corporation (FCIC) and oversees all programs                 We recommended RMA recover about $6 million in
authorized under the Federal Crop Insurance Act. FCIC        underwriting losses that FCIC incurred when the
is a wholly owned Government corporation that offers         reinsured company improperly ceded 1994 raisin losses
subsidized multiple-peril and revenue crop insurance         in California to FCIC. We also recommended that RMA
through a private delivery system by means of reinsured      strengthen management controls over fund designation
companies. RMA’s FY 2001 Government cost, net of             changes, particularly to ensure no changes are made
producer-paid premiums of $968 million, is estimated at      after the established cutoff dates, and establish
$2.2 billion.                                                reasonable validity checks for the acceptance of crop
                                                             yields into its data bases. RMA personnel generally
                                                             agreed with our recommendations.




                                                                                                                    15
Roundtable Meeting Between OIG and RMA

On November 30 and December 1, 1999,
representatives of RMA and OIG met in San Antonio,
Texas, to identify ways to improve interagency
cooperation and effectiveness. (This was the second
formal joint discussion of such magnitude—the first
being the December 1998 roundtable meeting between
OIG and FSA at which OIG and FSA made a
commitment to more efficiently ensure the effectiveness
and integrity of USDA programs through better
interagency coordination and understanding.) At least
20 representatives from each agency were present,
including the RMA Administrator, the Assistant
Inspectors General for Audit and Investigations, and the
Deputy Under Secretary for Farm and Foreign
Agricultural Services. RMA and OIG agreed to improve
coordination and understanding between the agencies
through better communication.

OIG and RMA jointly issued a report to the Secretary,
summarizing the results of their discussions, and
agreed to make it available to their staffs nationwide. In
the report, each agency outlined agreed-to actions
needed to improve on existing modes of communication/
operation that would transcend old perceptions and
foster both agencies’ commitments to achieve their
foremost common goal: RMA program integrity. Each
agency has taken steps to implement the corrective
actions.




16
Food, Nutrition, and Consumer Services


 FOOD AND NUTRITION SERVICE (FNS)                          EBT cards needed strengthening because cards were
                                                           not destroyed. Reconciliation of drawdowns of Federal
                                                           funds for retailer FSP redemption settlements was not
FNS administers the Department’s food assistance           properly monitored on a daily, monthly, or fiscal-year
programs, which include the Food Stamp Program             basis, which could result in drawdown errors. The State
(FSP); the Child Nutrition Programs (CNP); the Special     agency also needed to ensure computer security
Supplemental Nutrition Program for Women, Infants,         training is provided for all EBT system users annually.
and Children (WIC); and the Food Donation Programs.
FNS’ funding for FY 2000 is $34 billion. Three FNS         We recommended that FNS instruct the State agency to
programs receive the bulk of this funding: FSP, $19.8      implement controls to address these deficiencies. FNS
billion; CNP, $9.8 billion; and WIC, $4.1 billion.         agreed to work with the State agency to implement the
                                                           necessary controls.
Consulting Firm Pays Government $1.9 Million
                                                           Federal and State-Funded Food Stamp Benefits
A consulting firm based in Cambridge, Massachusetts,       Were Not Accurately Determined or Reported to
agreed to pay $1.9 million to the United States in order   FNS
to settle civil claims brought against it by the
Government under the False Claims Act. The company         The State Option Food Stamp Program (SOFSP)
provided a wide array of social science consulting         assists legal immigrants and childless, able-bodied
services to various Government agencies, including         adults who were made ineligible to receive food stamp
FNS, which contracted with the firm to collect and         benefits by the Personal Responsibility and Work
analyze data to evaluate nutrition-related programs.       Opportunity Reconciliation Act of 1996 (PRWORA).
The company routinely used subcontractors and              States were authorized to use the federally funded FSP
submitted invoices to agency clients, including FNS, for   infrastructure to deliver SOFSP benefits but were
services rendered, when, in fact, the company had not      required to pay FNS for their value.
yet incurred the costs for the services for which they
were charging. This was a violation of Federal             We reviewed implementation of SOFSP in California,
Acquisition Regulations (FAR). Premature billings          Washington, Florida, New Jersey, and Rhode Island
occurred in approximately 74 percent of the contracts,     and identified internal control deficiencies, which
which ultimately deprived the Government of the use of     required corrective actions by FNS and the States
funds at an imputed cost of $2.4 million.                  reviewed. The States were not accurately calculating
                                                           benefits for households receiving both Federal and
 FOOD STAMP PROGRAM                                        State-funded food stamps (mixed households). These
                                                           State agencies did not take actions necessary to comply
                                                           with their State plans and FSP regulations when
Monitoring of Electronic Benefits Transfer (EBT)           calculating SOFSP and FSP benefits for mixed
System Continues                                           households. During fieldwork, we issued management
                                                           alerts to the four FNS regional offices, but their initial
Currently, 40 States and the District of Columbia use      corrective actions were inconsistent. The FNS Mid-
EBT systems to deliver food stamp benefits. Thirty-        Atlantic and Northeast regional offices took aggressive
seven of the systems have been implemented                 action to require the States to revise their procedures,
statewide, including the District of Columbia. Over 70     correct errors, and make appropriate payments to FNS
percent of all FSP benefits are being issued via EBT.      for SOFSP benefits issued. The FNS Southeast
During this semiannual period, we completed EBT            regional office and Washington State have now taken
system audit work in Louisiana.                            similar actions to correct problems in Washington and
                                                           Florida. Corrective action is still pending in California.
The EBT system for Louisiana was successfully
implemented; however, controls needed to be                In view of its estimate that invalid payments
strengthened in some areas. The State agency did not       approximating $10 million could have been made during
ensure that user access codes for separated employees      FY 1998 in determining FSP immigrant benefits in
were removed from the system. Controls over returned       SOFSP States, FNS needs to implement consistent



                                                                                                                  17
policy in administering SOFSP. Actions required for        FNS indicated that it recognized that the process
individual States should ensure that Federal funds are     resulted in an increased demand on agency resources
not used to fund State programs and should be              to research and identify suspect transactions and that it
scheduled for completion so that financial transactions    intended to evaluate the problem as part of its redesign
are recorded, processed, summarized, and reported in       of systems in STARS II. FNS also noted that the
the fiscal year in which they occur. We recommended        conversion toward full EBT implementation changed
that FNS take immediate action to address the              specific controls needed to identify discrepant
accounting and reporting deficiencies identified during    transactions.
our audit, issue clarifying guidance to State agencies,
and recover invalid FSP expenditures.                      We noted that unauthorized transactions of disqualified
                                                           retailers are also a problem under the EBT system, and
FNS has initiated corrective actions and plans to          we recommended that FNS develop appropriate
continue its monitoring of State operations; however, it   controls to preclude this. At the time of our review, we
believes that PRWORA legislation allowed States            noted that the minimum amount of time needed to block
flexibility in implementing SOFSP. According to FNS, it    an EBT retailer from processing FSP transactions was
has agreed to document how each State has elected to       about 3 business days after disqualification. FNS has
treat ineligible alien income and will require States to   since developed the Retailer EBT Data Exchange
follow their elected procedures.                           System, which permits the deactivation of point-of-sale
                                                           devices electronically to prevent further FSP
Improper Payments Were Made to Disqualified Food           transactions. FNS advised us that, with rare
Stamp Retailers                                            exceptions, withdrawals and disqualifications should
                                                           occur within 24 hours.
FNS relies on controls in the Store Tracking,
Authorization, and Redemption Subsystem (STARS) to         There was also the potential for disqualified retailers to
monitor and identify unauthorized FSP payments to          “sneak” back into the program because there were no
disqualified retailers. As part of our ongoing work to     procedures requiring specific data base searches to
ensure that FNS retailer management systems keep           identify disqualified applicants prior to approving a
pace with changes in technology and continue to            retailer’s application. STARS did not prompt users to
strengthen Federal controls for the oversight of program   perform data base searches to determine if the
retailers, we initiated an ongoing evaluation of the       applicant had been disqualified previously from the
controls in place to prevent disqualified retailers from   program. FNS has implemented new procedures for
reentering FSP during the assigned disqualification        applicant data base searches in STARS. The new
period.                                                    procedures developed under the Related Individuals
                                                           Tracking System project appear to correct the
During the period of evaluation, we identified several     deficiencies related to verifying that applicants have not
weaknesses in STARS that made the system less              been disqualified previously from the program.
effective than it should be. We determined that, due to
the high volume of suspect transactions that had to be     Update on $63 Million Food Stamp Fraud Case
researched, the identification through STARS of
improper redemptions made by disqualified retailers        As reported last period, in a complex food stamp
was in danger of becoming ineffective. For example,        trafficking conspiracy involving 46 defendants, food
our review of 14 disqualified stores disclosed that        stamps worth $63 million were fraudulently redeemed
$123,000 in questionable redemptions was made by 3         through 20 authorized stores in New York City. To date,
retailers. However, the STARS data for the firms           35 defendants have been convicted, including 4 bank
indicated that over $210,000 in questionable               officials. Of those four bank officials, three individuals
redemptions was made for these stores. Based on the        pled guilty, and a jury found one official guilty of bank
STARS data, FNS staff would have to evaluate an            fraud and bank bribery. Sentencing is pending.
increased number of transactions before identifying the
questionable ones. We recommended that FNS
evaluate STARS to develop controls that would more
precisely identify FSP benefit redemptions by
disqualified retailers.

18
Store Owners/Employees Face Penalties for EBT              Nine Subjects From Violent Street Gang Plead
Fraud in Baltimore                                         Guilty

Two brothers who co-owned a Baltimore City grocery         A joint undercover investigation with the Ohio Organized
store were convicted of conspiring to commit nearly        Crime Investigations Commission led to the indictment
$740,000 in food stamp fraud through the EBT system.       and conviction of nine members of a violent street gang
The brothers were sentenced to 6 months in jail,           in Dayton, Ohio. Investigation showed that the nine
followed by 6 months of home detention, and ordered to     were involved in a conspiracy to defraud the food stamp
pay a total of approximately $24,000 in restitution.       and other welfare programs, conspiracy to possess and
While OIG was investigating this store, its former         distribute cocaine, interstate travel to promote drug
manager opened her own store in Baltimore, obtained        trafficking, use of firearms while engaged in narcotics
authorization to participate in FSP, and was later         trafficking, money laundering, receiving stolen property,
convicted of trafficking in over $239,000 worth of food    and homicide. Many of the gang members, including
stamp benefits via the EBT system. The former              the upper echelon, were collecting food stamp and
manager has been sentenced to 1 year in jail and           welfare benefits. In this case, 17 residential search
ordered to pay $239,000 in restitution.                    warrants were executed in 5 Ohio cities, and 12 arrest
                                                           warrants were executed in Ohio and Kentucky. Items
Also in Baltimore, the owners of another grocery store     seized included 9 residences, 18 automobiles, 66 guns,
pled guilty to EBT fraud and trafficking in food stamp     drugs, steroids, and cash. Sentences for the nine are
benefits. The loss to the Government totaled between       pending. Additional indictments are anticipated.
$800,000 and $2 million from 1995 to November 1999.
In October 1999, OIG agents executed a Federal             Former Caseworker Sentenced in Fraud Scheme
search warrant at the store, where they seized $9,500 in
cash and obtained statements from the owners               A former eligibility counselor with the Tennessee
admitting to the trafficking. As part of their plea        Department of Human Services (TDHS) pled guilty to
agreement, the owners agreed to forfeit the seized cash    mail fraud and was sentenced to serve 18 months in a
and any other available assets. Sentencing is pending.     Federal prison, followed by 2 years’ supervised release,
                                                           and ordered to pay a special assessment fee of $100
Computer Match Identifies District of Columbia             and restitution of $217,000. The caseworker had been
Inmates Receiving Welfare Benefits                         responsible for determining recipient eligibility in the
                                                           food stamp, welfare, and TennCare medical assistance
We initiated a joint operation with the District of        programs. In her position, she had created six fictitious
Columbia’s Department of Human Services (DCDHS) to         recipient case files and had the benefits mailed to
match prison inmate rolls with the DCDHS welfare           herself. This was a joint investigation among OIG,
recipient rolls. DCDHS completed the prison match in       TDHS, and the U.S. Postal Inspection Service.
January 2000. After reviewing 173 cases from the
match, DCDHS identified 108 food stamp cases in
                                                            SPECIAL SUPPLEMENTAL NUTRITION
which overissuances totaling almost $142,000 had been
                                                            PROGRAM FOR WOMEN, INFANTS, AND
paid to unauthorized households. DCDHS also found
                                                            CHILDREN (WIC)
29 cases in which overpayments totaling more than
$77,000 had been paid from the Temporary Assistance
for Needy Families and General Assistance programs.        $71 Million Judgment Awarded in Food Stamp/WIC
This project thus identified 137 households that had       Case
received nearly $220,000 in unauthorized food stamp
and welfare benefits. DCDHS is seeking recovery of         A U.S. District Court judge issued a $71 million
these monies from the recipients. Matches such as          summary judgment against two prominent Cleveland,
these were authorized by the Welfare Reform Act of         Ohio, area businessmen, who currently are fugitives.
1996.                                                      The civil complaint, filed in May 1996, petitioned for
                                                           triple damages for illegally trafficking $24 million in food




                                                                                                                     19
stamps and WIC vouchers. The subjects were also
charged with money laundering a total of $4.3 million,
hiring unauthorized aliens, and tax charges. The
businessmen’s attorney made a separate out-of-court
settlement, under which the attorney and his law firm
paid the Government $275,000 for their involvement in
the fraud.

The two businessmen remain fugitives in the Kingdom
of Jordan. The Jordanian court failed to extradite the
two after their arrest by the Jordanian National Police.
The DOJ Office of International Affairs and OIG’s
representative at INTERPOL continue to work on their
extradition. This investigation was conducted jointly
with the Internal Revenue Service’s (IRS) Criminal
Investigation Division and the Immigration and
Naturalization Service’s Investigations Division.




20
Food Safety


 FOOD SAFETY AND INSPECTION SERVICE                       Formula to FSIS to obtain food-grade approval for their
 (FSIS)                                                   lubricants, which are used in the food-processing
                                                          industry. The former vice president of manufacturing
                                                          stated the company feared that disclosure of the
FSIS administers a comprehensive system of inspection     lubricants’ true ingredients, which contained poisonous
laws to ensure that meat, poultry, and egg products       impurities, would result in denial of the products’ use.
moving in interstate and foreign commerce for use as      The investigation further found the company in violation
human food are safe, wholesome, and accurately            of provisions of the Toxic Substance Control Act, since
labeled. FSIS’ appropriation for FY 2000 totaled          the lubricants imported from Germany were not listed on
approximately $649 million.                               the inventory maintained by EPA. Under the terms of
                                                          the agreement, the company accepted responsibility for
Multinational Corporation Submits False Statements        its actions and was placed under pretrial supervision for
to FSIS                                                   18 months. The company will also pay a total of $2.3
                                                          million, consisting of a $1.3 million payment to the
In New Hampshire, a joint investigation with the          United States, $750,000 to resolve an administrative
Environmental Protection Agency’s (EPA) Criminal          action brought by EPA, and $250,000 to fund a
Investigation Division resulted in a pretrial diversion   supplemental environmental project of its choosing,
agreement with a multinational corporation based in       subject to acceptance by the Government.
Munich, Germany. Investigation determined the
corporation submitted false Confidential Statements of




                                                                                                                21
Marketing and Regulatory Programs


  AGRICULTURAL MARKETING SERVICE                            We recommended that AMS develop comprehensive
 (AMS)                                                      training and improve written instructions, require
                                                            national office personnel to review subcontractors more
                                                            comprehensively, and obtain an OGC opinion regarding
AMS enhances the marketing and distribution of              compliance with FAR. AMS agreed with the
agricultural products by collecting and disseminating       recommendations and implemented corrective action.
information about commodity markets, administering
marketing orders, establishing grading standards, and       Coffee Company Falsifies USDA Certificates
providing inspection and grading services. AMS’
funding level for FY 2000 is approximately $274 million.    The owner of a Bridgeport, Connecticut, company pled
                                                            guilty in U.S. District Court to one count of wire fraud.
AMS Needs To Improve Its Controls Over the                  The firm distributes coffee beans and manufactured
Commodity Purchase Program                                  coffee products to companies throughout the country.
                                                            From October 1997 to June 1999, the company bid on
AMS purchases excess supplies of 100-percent                eight contracts, worth about $400,000, with a food
domestic commodities to assist farmers when prices          distributor in Illinois to manufacture and ship coffee.
and income are depressed by surpluses. AMS                  The contracts required that each shipment of coffee be
requested that we assess its procedures and controls        officially inspected and certified by USDA, since the
over the Commodity Purchase Program to determine if         coffee products were to be used in Illinois public
there was reasonable assurance the food it purchased        institutions. The company obtained the contracts by
for Government programs was of 100-percent domestic         submitting the lowest bid. However, in order to make a
origin.                                                     profit on the contracts, the company never obtained
                                                            USDA inspections. Instead, it provided the food
We found that AMS inspectors did not follow agency          distributor with falsified USDA Certificates of Quality and
procedures in confirming domestic origin for 51 of the      Condition and USDA stamps. Sentencing is pending.
89 contracts we reviewed. Either the inspectors could
not provide evidence that they conducted the required
reviews or the reviews were inadequate because the           ANIMAL AND PLANT HEALTH INSPECTION
documentation they collected did not confirm domestic        SERVICE (APHIS)
origin. The inspectors told us that they received limited
training and did not clearly understand their               Through inspection, APHIS protects the Nation’s
responsibilities. As a result, AMS could not provide        livestock and crops against diseases and pests and
reasonable assurance that commodities purchased with        preserves the marketability of U.S. agricultural products
program funds were 100-percent domestic for contracts       at home and abroad. APHIS’ available funding for
valued at $28 million.                                      FY 2000 is estimated at about $573 million.

Although we found no indication of foreign products in      APHIS Should Reevaluate the Level of Inspections
the 89 contracts, the AMS national office was unaware       in Florida
that its domestic origin verification procedures were not
properly understood or implemented by its field staff.      Pests and diseases on agricultural products have
Also, AMS was not complying with Federal Acquisition        entered Florida through the State’s ports undetected,
Regulations (FAR) class deviation requirements. FAR         leading to costly eradication and control efforts. For
adopted the Buy American Act, which, in certain cases,      example, the outbreak and spread of citrus canker and
allows foreign products to be commingled with domestic      Medflies in Florida have caused the State and Federal
products. AMS did not realize that its 100-percent          Government to spend millions of dollars to fund
domestic origin policy required notifying the FAR           programs to combat the outbreaks. Our review of Plant
Secretariat and possibly proposing a revision to FAR.       Protection and Quarantine (PPQ) practices for
USDA’s OGC believed that the lack of an appropriate         inspecting air and ship cargos and passengers arriving
FAR revision could create legal challenges for the $700     in the Miami and Fort Lauderdale ports identified
million to $800 million of commodities purchased            vulnerabilities and weaknesses, which increased the
annually by AMS.                                            risk of prohibited agricultural products entering the
                                                            United States.

22
We observed that PPQ inspectors did not (1) inspect          submitted false entry documents that omitted the
cargo ships timely upon arrival; (2) inspect the baggage     smuggled items. In March, a Federal jury found one of
of 75 percent of arriving international airline passengers   the importers guilty of bribery, money laundering,
and 99 percent of cruise ship passengers arriving from       smuggling and entry of adulterated foodstuffs, and
foreign locations; (3) assess fines as a deterrent against   conspiracy. The other two importers had already pled
airline and cruise ship passengers found to have             guilty, one to receipt of adulterated food in interstate
prohibited agricultural items in their possession when       commerce, and the other to importing adulterated
entering the United States; (4) select samples of            product and bribery. All three are scheduled to be
perishable cargo for inspection but, instead, allowed        sentenced later. This case resulted from work initiated
brokers to select the samples; and (5) ensure caterers       by the San Francisco Interagency Import Task Force,
met all foreign arriving aircraft timely and control         which has been targeting firms involved in illegally
regulated garbage. We also observed that cargo               importing plants and animals that may present a threat
inspections performed during overtime periods, which         to America’s food supply. OIG agents have been
accounted for over 50 percent of all cargo inspections,      working with representatives from FDA, APHIS, the U.S.
were not supervised.                                         Customs Service, the U.S. National Marine Fisheries
                                                             Service, the U.S. Fish and Wildlife Service, the IRS, the
We made a series of recommendations to improve the           California Department of Health Services, and the
inspection process and to correct the specific               California Department of Food and Agriculture at the
vulnerabilities and weaknesses noted. The                    direction of the U.S. Attorney for the Northern District of
recommendations included the assessment of penalties         California.
when warranted and the evaluation of higher fee rates
for inspections to provide for sufficient staff and          Individual Impersonating USDA Inspector Nabbed
resources. APHIS agreed with the recommendations or
proposed alternatives and is implementing corrective         An individual in the Lancaster, Pennsylvania, area
actions.                                                     approached a large circus, claiming to be a USDA
                                                             inspector and asking to inspect the animals. The circus
Smugglers Caught Trying To Bribe Government                  employees called the local police because no one
Official                                                     recognized the impersonator. Subsequent investigation
                                                             by OIG confirmed the individual had never been
A multiagency sting operation in San Francisco netted        employed with USDA, although he had at one time been
three importers who tried to bribe a Food and Drug           a field enumerator under contract with a statistics office
Administration (FDA) official to expedite the entry of       in USDA. The individual pled guilty in State court to
their food shipments from Hong Kong into the United          impersonating a public servant and was sentenced to 2
States without regulatory inspections. The subjects          years’ probation and a fine of about $200.




                                                                                                                     23
Natural Resources and Environment


The Natural Resources and Environment mission area            A number of specific problems were noted during our
plays a critical role in the sound stewardship of the         review. Cities/areas were not selected to participate in
Nation’s land and natural resources. The Forest               URP on a competitive basis. Also, URP recipients did
Service and the Natural Resources Conservation                not always use funds to meet the purposes (see photo)
Service share responsibility for fostering sound              of the applicable statutes from which the appropriations
stewardship on 75 percent of the country’s land.              were obtained. Our review identified 131 awards for
                                                              $3.4 million that did not meet the intended purposes. In
URP Program Initiated Without Statutory Authority             addition, the program did not include controls to ensure
or Appropriated Funds                                         that award funds were used in accordance with
                                                              applicable Federal regulations. Recipients claimed
The Department initiated the Urban Resources                  questionable costs totaling over $1.3 million, which
Partnership (URP) program in FY 1994. The Under               resulted in over $474,000 subject to recovery.
Secretary for Natural Resources and Environment
established URP to work directly with local people on         We recommended that all URP grants be reviewed to
projects related to natural resources in urban areas.         determine their legal authority as well as fulfillment of
                                                              purposes under the applicable statutes, and that a
The prescribed process for implementing a Federal             strategy be developed to resolve all such issues. We
financial assistance program was not followed for URP,        also recommended the Department publish applicable
as it was initiated without specific statutory authority or   requirements and procedures in the Federal Register
congressional appropriations. The program was                 and that control procedures be established at the Under
financed using funds appropriated for existing FS and         Secretary level to ensure all program initiatives are
NRCS programs. Further, regulations were not                  forwarded to OGC for review prior to implementation. In
promulgated in the Federal Register to publicize the          addition, we recommended that controls be established
objectives and requirements of the program.                   at FS and NRCS to ensure grant awards meet the
                                                              statutory purposes. We further recommended that




                                                                                                   NRCS used
                                                                                                   appropriated funds,
                                                                                                   whose use was
                                                                                                   limited to activities
                                                                                                   associated with soil
                                                                                                   erosion control, for
                                                                                                   activities such as
                                                                                                   painting a mural on a
                                                                                                   wall as seen here.
                                                                                                   URP photo.




24
control procedures be implemented at the office of the      that misspent funds should be established as a
Under Secretary for Natural Resources and                   receivable on the agencies’ accounting records and
Environment and the offices of the Chiefs of FS and         determinations made regarding whether the amounts
NRCS to assure USDA and Office of Management and            owed should be collected and/or waived. We continue
Budget (OMB) regulations are adhered to for all award       to work with departmental officials to reach agreement
programs.                                                   on the management decisions.

The Under Secretary for Natural Resources and
                                                             FOREST SERVICE (FS)
Environment responded that FS and NRCS have
conducted internal reviews of the program and that
additional guidance has been provided regarding URP         FS has the responsibility for providing leadership in the
activities. The Under Secretary requested a clarifying      protection, management, and use of the Nation’s
opinion from OGC regarding its July 1999 opinion in         grassland and aquatic ecosystems on public and private
which it determined there was no authorizing legislation    lands. The National Forest System includes 191.8
for URP. OGC’s clarification stated the Secretary has       million acres of forest, grass, and shrub lands. FS also
broad authority to undertake soil and water conservation    cooperates with State and local governments and
measures relating to soil erosion; however, the agency      private landowners in the management of forest
must ensure any proposed URP activity falls within the      resources and provides leadership in forest and
scope of that authority. Based on the OGC clarification,    rangeland research. The FY 2000 budget for FS is
the Under Secretary believes that the agencies have         estimated at $3.5 billion, while receipts generated
sufficient legal authority to undertake the activities      through timber sales and other activities are estimated
conducted under URP.                                        at about $845 million.

We continue to believe that URP projects such as wall       San Bernardino National Forest Land Adjustment
murals, transportation, and bringing civil lawsuits         Program Was Effective
against owners of derelict properties to force demolition
or rehabilitation of structures are not related to soil     Our audit found that the San Bernardino National Forest
erosion prevention. FS and NRCS officials also believe      Land Adjustment Program was effective in acquiring
it is not in the public interest to recover funds from      only high-priority lands, properly using third parties to
organizations that completed URP projects accepted by       facilitate land exchanges, and disposing of unneeded
the local steering committees. We continue to believe       forest lands.




                                                                                                                  25
Rural Development


The Rural Development mission area helps the people        purchases for his personal residence to the RRH
of rural America develop sustainable communities and       complexes, paying shell companies for landscaping
improve their quality of life. Rural Development           services never performed, stealing money from coin-
programs are delivered through three agencies: the         operated laundry facilities at the RRH complexes, and
Rural Housing Service, the Rural Business-Cooperative      receiving kickbacks from contractors who provided
Service, and the Rural Utilities Service. In a typical     services to the complexes. The manager is estimated
year, Rural Development programs create or preserve        to have netted $60,000 from these combined schemes.
more than 150,000 rural jobs, enable 40,000 to 50,000      Sentencing is pending.
rural Americans to buy homes, and help 450,000 low-
income rural residents rent apartments or other housing.
                                                            RURAL BUSINESS-COOPERATIVE SERVICE
                                                            (RBS)
Internal Controls Over Administrative Payment
Operations Lacking
                                                           RBS enhances the quality of life for rural residents
Systemic internal control deficiencies existed in the      through grants or loans to rural-based cooperatives and
Virginia Rural Development State Office administrative     businesses and through partnerships with rural
procurement operations regarding the purchase,             communities. RBS national staff and Rural
authorization, and/or receipt of goods and services. As    Development State office staff promote stable business
a result, miscellaneous payments of about $286,000         environments in rural America through financial
were unsupported due to one or more documentation          assistance, business promotion, and technical
errors, and 35 purchase orders, approximating              assistance, as well as research, education, and
$235,000, lacked supporting documentation. Certain         information.
questionable payments are under investigation.
                                                           Lender Hid Financial Condition of Borrower Who
We recommended that the State office recover any           Defaulted in 16 Days
payments confirmed to be improper in the investigation
and implement controls, including separation of duties.    The Indiana Rural Development State Office requested
The national office should perform a review of the State   the audit to determine why a borrower defaulted on a
office administrative operations to ensure payment         guaranteed Business and Industry (B&I) loan after only
procedures are followed. Management agreed with the        16 days, causing RBS to pay almost $600,000. Rural
findings and recommendations in the report and             Development requested that we ascertain whether loan
performed a review in March 2000 of the corrective         funds had been used for authorized purposes and the
actions implemented by the State office.                   lender had properly determined and reported the
                                                           borrower’s financial condition in requesting the B&I loan
                                                           guarantee.
 RURAL HOUSING SERVICE (RHS)
                                                           Our audit uncovered evidence that the lender knew of
RHS is responsible for making available decent, safe,      the borrower’s poor financial condition before making
sanitary, and affordable housing and community             the loan but did not disclose this information to RBS.
facilities by making loans and grants for rural single-    Also, the lender knew of the borrower’s delinquent tax
family housing and apartment complexes, fire stations,     status but certified otherwise. Further, the lender was
libraries, hospitals, and clinics. For FY 2000, program    aware that the borrower had serious cash-flow
funding for RHS loans and grants totaled $5.8 billion.     problems. The lender used over $295,000 of the
                                                           guaranteed loan proceeds to pay off a prior loan it had
RRH Company’s Regional Manager Pleads Guilty               made to the borrower and liquidate overdrawn checks.
                                                           RBS had required that guaranteed loan funds be used
In California, the regional manager of an RRH              only for working capital and not to pay short-term notes.
management company pled guilty to conspiracy to            Rural Development officials informed us they would not
defraud the Government and filing a false income tax       have guaranteed the loan if they had known the funds
return. Our investigation disclosed that the manager       would be used to pay off prior obligations. In addition,
diverted money from RRH projects by charging               the borrower had not filed Federal and State tax returns
                                                           since 1995.

26
Based on the evidence uncovered during our audit, we          reasonable rates and terms use private resources
referred this case for criminal investigation. We             instead of Government loans. Thus, under the current
recommended that RBS seek recovery of almost                  regulatory scheme, RUS does not have the discretion to
$596,000 paid on the loan guarantee.                          refuse a loan because a borrower is in strong financial
                                                              condition.
 RURAL UTILITIES SERVICE (RUS)
                                                              Electric Program Borrowers Are Not Investing in
                                                              Rural Development as Intended by Congress
RUS seeks to improve the quality of life in rural America
through a variety of loan, loan guarantee, and grant          RUS electric generation and distribution borrowers did
programs for electric energy, telecommunications              not increase their investment portfolio in rural
(including distance learning and telemedicine), and           development as intended by Congress when it
water and waste projects. As of September 30, 1999,           amended the Rural Electrification (RE) Act to increase
electric borrowers had received over $58.2 billion in         the amount of investments, loans, and loan guarantees
direct and guaranteed loans, telecommunications               that electric borrowers could make without prior
borrowers had received over $13.1 billion in direct loans     approval of RUS. Of the $10.9 billion in investments
and guaranteed loans, and water and waste borrowers           reported by 787 electric program borrowers in calendar
had received a total of $22.7 billion in direct loans, loan   year 1997, only 90 borrowers reported about $61 million
guarantees, and grants.                                       (about 1/2 of 1 percent) in rural development
                                                              investments.
Many RUS Telephone Loan Borrowers Do Not Need
Government Assistance                                         Prior to passage of section 312 of the RE Act,
                                                              borrowers were prohibited from investing more than 3
RUS continues to make and service telephone loans to          percent of the value of their total utility plant (TUP) in
financially strong borrowers who likely could obtain          “non-Act” investments. In December 1987, Congress
financing from other sources. Title 7, U.S.C. 930, states     amended the RE Act to allow investment of up to 15
that rural telephone systems are to be encouraged and         percent of TUP without prior approval by RUS. The
assisted to develop their resources and ability to            legislative history shows that one of the primary
achieve the financial strength needed to enable them to       purposes for increasing the level of investment was to
satisfy their credit needs from their own organizations       increase the amount of funds available for rural
and other sources.                                            development projects and to promote the ability of
                                                              electric borrowers to improve the rural areas they serve.
Nevertheless, we identified 434 borrowers with loans
totaling $1.9 billion who had sufficient financial strength   Electric borrowers have taken advantage of the 15-
to repay their loans and/or could obtain, or be graduated     percent investment rule; however, over 99 percent of
to, non-Government lending sources. Their financial           these investments have not been in rural development.
ratios were equal to or better than the average of those      Instead, electric borrowers reported investments such
for 16 borrowers who, in 1998, had paid off RUS loans         as U.S. Treasury notes, stocks and bonds, money
totaling $125 million an average of 22.6 years ahead of       market certificates, certificates of deposit, and
schedule. Although prohibited from denying a loan for         commercial paper. RUS agreed with our
any reason other than that based on a properly enacted        recommendation to develop and implement a strategy
administrative rule, RUS has not enacted a rule to            to encourage electric borrowers to make discretionary
require that borrowers who can obtain private credit at       investment in rural areas as intended by Congress.




                                                                                                                      27
Research, Education, and Economics


 COOPERATIVE STATE RESEARCH,                               SCSU had not completed a CSREES-funded office
 EDUCATION, AND EXTENSION SERVICE                          facility after a contract dispute interrupted construction.
 (CSREES)                                                  In 1994, SCSU entered into a $2.4 million contract for
                                                           the construction of an Extension office facility.
                                                           Construction on the project began in July 1994 and was
The Cooperative Extension System is a national             to be completed within 1 year. However, problems with
network that helps the agricultural and forestry           the architectural design and change orders, as well as
communities improve their lives and production through     disagreement between the architect and engineering
the dissemination and demonstration of new scientific      firm and the construction contractor, resulted in delays
knowledge and improved technologies. The partners in       and eventual termination of the contract. After more
this unique system include CSREES, the Cooperative         than 5 years and the expenditure of over $2 million of
Extension Service (CES) at each land-grant institution,    Federal funds, the facility remains incomplete and
and nearly all of the Nation’s 3,150 counties. CSREES      provides no benefit toward strengthening SCSU’s
administers funds in accordance with various laws to       capacity to carry out educational programs. SCSU
support the programs and creates the infrastructure of     estimated that an additional $1 million would be needed
CES.                                                       to complete the facility.

University Charged Ineligible Costs, Still Did Not         We made a series of recommendations for SCSU to
Complete Construction of Funded Facility                   improve its accounting controls and recommended fiscal
                                                           adjustments for approximately $128,000 of Extension
At the request of the CSREES Administrator, we             funds improperly used. We also recommended that
reviewed the South Carolina State University’s (SCSU)      because SCSU, its architect and engineering firm, and
use of Extension Service grant funds to determine if       the contractor were all responsible for the project not
they were used for eligible purposes. We found that        being completed in accordance with the terms of the
SCSU improperly used funds from its Extension              contract, no additional Federal funds beyond the original
program account (Public Law 95-113) to pay almost          contract price should be used for the facility. CSREES
$114,000 of construction expenses related to its           agreed and has required SCSU to prepare a plan to
Extension facility account (Public Law 99-198). Use of     complete the facility in 12 months and to secure the
Public Law 95-113 funds for construction-related           building until its completion.
expenses is prohibited. In addition, we identified grant
funds approaching $15,000 not properly accounted for,
used for ineligible purposes, or not deposited in the
proper accounts.




28
Financial, Administrative, and
Information Technology

 EQUAL EMPLOYMENT OPPORTUNITY (EEO)                        • Of the 54 prior recommendations we had made to
                                                             improve CR’s program complaints processing, CR
                                                             had implemented only 13.
Complaints of Discrimination Need More Efficient
Handling                                                   We concluded that CR’s inefficiencies are the
                                                           symptoms of the larger problem of CR’s operating
As part of our continuing reviews, we found that the       environment. Over the past several years, because of
Office of Civil Rights (CR) remains an inefficient         the multiple changes in its chain of command and
manager of both EEO discrimination complaints and          resultant differing demands of each new manager, CR
program complaints. CR’s data base is not a reliable       has resorted to short-term solutions rather than long-
tracking system. It did not accurately reflect where in    term plans demanding accountability of employees.
the resolution process fully one-third of the open EEO     Previously, we recommended that CR reengineer its
complaints stood, and it could not identify where over     complaints resolution process; CR officials agreed yet
1,200 program complaints case files could be located.      implemented no significant changes.
Further, case file documents are misfiled, and the
chaotic state of CR’s file room makes retrievability       For this seventh review, we emphasized that CR needs
difficult. During our review, CR could not locate 115 of   to design and implement a long-term plan to ensure it
the files we requested for both EEO and program            can resolve complaints efficiently and with due care,
complaints.                                                concentrating on process reengineering, effective
                                                           leadership, a changing organizational culture, and
Moreover, despite a Governmentwide timeframe of 270        customer focus. We also urged CR to expedite
days established for resolving EEO complaints, the age     implementation of a new EEO complaints tracking
of those cases pending the approval of the draft reports   system and its installation of a new program complaints
of investigation and draft final agency decision is, on    data base.
average, 474 and 668 days, respectively. For
complaints of program discrimination, CR averages 126      Department’s Original Backlog of Program
days to decide if it will accept a case and another        Complaints Substantially Cleared, Other Concerns
174 days to investigate and adjudicate the case;           Remain
together, this is longer than the 180-day time period CR
gives itself to resolve program complaints.                During our latest evaluation of the operations of CR, we
                                                           reviewed the status of its original backlog of complaints
CR’s inefficiencies are reflected throughout the           of discrimination in the award of USDA program benefits
processing cycle and raise questions of due care in the    to farmers and others. After 2 years, and with the help
resolution of discrimination complaints.                   of an OIG-recommended task force, CR has been able
                                                           to substantially clear this original backlog. In November
• EEO reports of investigation had been accepted by        1997, the backlog stood at 1,088 cases; during our
  CR as complete even though they contained                current review, the backlog had been reduced to 35
  substantial errors.                                      cases.

• Final decisions reached in EEO cases were not            Our concern remains that the complainants in these 35
  always based on accurate assumptions and did not         cases have not received a resolution. These complaints
  always reflect the evidence collected.                   have been open up to 7 years, and CR’s tracking
                                                           system shows that eight are still in the preinvestigation
• Individuals had their program complaints rejected        stage.
  without being given an opportunity to provide missing
  information.                                             Also, in clearing the original backlog, CR entered into 34
                                                           settlement agreements without adequately documenting
• Program complaints still awaited acceptance after 30     how it arrived at the amounts of compensatory damages
  days (the limit for this phase of processing) even       and debt relief it awarded the complainants. Damages
  though the submitters had not been sent letters          awarded under settlement agreements are paid from
  acknowledging receipt of the complaint or requesting     USDA appropriations, and the awards in these 34 cases
  additional information. (At least 454 cases exceeded     do not appear to satisfy all the requirements of
  the 30-day limit and may be considered backlog.)
                                                                                                                  29
appropriations law. Although the USDA task force that       total, how much money is collected, the cost of its
cleared the backlog recommended limited damages and         operations, or any other meaningful measure of
debt relief in many cases, CR increased the amounts         financial performance. The Department has many
significantly but did not document its analysis of USDA’s   serious financial management system problems that
liability.                                                  impact its ability to provide accurate and reliable
                                                            reporting on its financial operations. The Department
A DOJ opinion states that because damage awards are         has reported to the President that it is unable to provide
paid from appropriations, such awards should only be        reasonable assurance that the Department’s financial
made if it is determined a court would have made a          systems provide information that is relevant and
similar award. Such a determination presupposes an          consistently reported. This difficulty will continue until at
assessment of the degree to which USDA was liable in        least 2003.
the case.
                                                            The Department’s existing financial information system
We found the awards to the 34 claimants who accepted        does not always process and report Departmentwide
settlement offers were not fully supported by               financial information accurately. We noted that the
documentation that reasoned USDA’s degree of liability.     system was not integrated with its subsystems and did
These claimants received over $2.3 million in               not substantially comply with the three requirements of
compensatory damages and nearly $3.7 million in debt        the Federal Financial Management Improvement Act
relief. In eight of these cases, the USDA task force had    (FFMIA). In addition, the delay in implementing the
found either no finding of an inference of discrimination   Department’s new accounting system, the Foundation
or a low to very low potential of discrimination. None of   Financial Information System (FFIS), has had a
these 34 settlements was reviewed by OGC for legal          significant impact on the Department’s financial and
sufficiency. A subsequent memorandum issued by the          program operations.
Secretary has emphasized the need to submit all
settlement documentation to a legal sufficiency review.     The Department has recognized the need to improve its
                                                            financial systems and created the Financial Information
We recommended that CR’s procedures require it to           System Vision and Strategy (FISVIS) Project Team to
document the computations behind its awards of              develop the financial systems, standards, and
compensatory damages, debt relief, and attorneys’ fees      definitions necessary to implement FFIS. Achieving the
and that it submit this documentation to OGC as part of     reforms required by financial management legislation is
the legal sufficiency review. We also recommended           essential to effectively manage the Department’s over
that CR resolve the remaining 35 cases in the original      $118 billion in assets and budget authority of about $89
backlog with all deliberate speed.                          billion.

                                                            Rural Development’s FY 1999 Financial Statements:
 FINANCIAL MANAGEMENT
                                                            Qualified Opinion

The Chief Financial Officers Act and the Government         Our qualification of opinion (for the last 6 years) is due
Management Reform Act require USDA to prepare and           to Rural Development’s inability to ensure that the costs
audit financial statements. Financial statements are        of its direct and guaranteed loan programs are
generated from six separate systems operated by             reasonably estimated as required by the Credit Reform
various USDA agencies.                                      Act of 1990.

Financial Statement Audits                                  Our Report on Internal Controls described several
                                                            weaknesses. First, credit reform problems (ensuring
USDA’s FY 1999 Consolidated Financial Statements:           subsidy costs are reasonably estimated) significantly
Disclaimer of Opinion                                       impact Rural Development’s financial statements and
                                                            budget submissions, calling into question the reliability
Our disclaimer of opinion (for the last 6 years) means      of the costs of Rural Development’s loan programs,
that the Department, as a whole, does not know              estimated at about $14 billion. One major shortcoming
whether it correctly reported monies to be collected in     stems from the lack of historical data regarding the



30
performance of Rural Development’s long-term loans.            Based on a statistical sample of individual real property
In lieu of this information, Rural Development has relied      assets, we estimated that approximately $197.8 million
on the judgment of program managers. No statistically          of the total $1.75 billion of capitalized value was not
valid studies are on hand, however, to support these           adequately supported. We also estimated the
critical assumptions. In FY 1999, the Department               capitalized values contained approximately $135.8
established a task force, to include the Office of the         million in overstatements and $79.9 million in
Chief Financial Officer (OCFO), the U.S. General               understatements.
Accounting Office, and OIG, that is making progress to
resolve credit reform issues. However, significant work        Food and Nutrition Service (FNS) FY 1999 Financial
remains to be done.                                            Statements: Unqualified Opinion

We also reported a material internal control weakness          In FY 1999, FNS made progress in strengthening its
with regard to controls over information technology. In        internal control structure to provide a financial
addition, we reported that the oversight of guaranteed         management system that contains sufficient discipline,
loans needed improvement and that substantial control          effective internal controls, and reliable data. However,
weakness at OCFO/National Finance Center (NFC)                 we identified several material internal control
impacted the integrity of financial management data            weaknesses that warrant corrective actions.
provided to Rural Development. Further, we reported
that Rural Development’s financial systems do not meet         FNS has not corrected its internal control weakness
Federal accounting requirements.                               related to FSP recipient claims, initially identified in our
                                                               FY 1991 financial statements audit. However,
We recommended Rural Development participate with              corrective actions have been initiated with an expected
the Department’s Chief Financial Officer in developing a       implementation date of September 2001 for all State
long-range plan to consolidate, reengineer, and                agencies. In addition, FNS twice posted an EBT
integrate financial/administrative systems.                    reconciliation adjustment to its accounting system,
                                                               resulting in an understatement of $16.3 million. FNS
FY 1999 Forest Service (FS) Financial Statements:              also did not record funds on hand for the State of
Disclaimer of Opinion                                          Missouri, at fiscal year end, as advances for EBT
                                                               system drawdowns. This ultimately caused five related
FS uses a nonintegrated general ledger system, the             general ledger accounts and six applicable financial
Central Accounting System (CAS), for approximately             statement line items each to be misstated by $2.6
84 percent of its financial activity. The inability to trace   million.
individual transactions from general ledger accounts to
supporting subsidiary records, along with significant          EBT processors can adjust previously submitted
financial systems weaknesses within CAS, precluded us          issuance information in the Account Management Agent
from performing sufficient tests to obtain assurances          (AMA) system without State knowledge or approval
that amounts reported in FY 1999 financial statements          because of a system design flaw, which OIG first
were fairly presented.                                         reported in FY 1997. As a result, EBT processors can
                                                               gain access to a larger amount of Federal funds than
Our examination of FS’ internal control structure              authorized by the States. In response to our prior
disclosed FS initiated major changes to overcome               financial statements report, additional States began in
continuing financial management deficiencies.                  FY 1999 to reconcile State issuance data to EBT
However, because of the continued use of CAS and               processor and AMA data. This reconciliation does not
various problems occurring within FFIS, FS’ financial          prevent unauthorized adjustments from being posted to
data remained unreliable. Also, internal controls were         AMA, but it would identify the adjustments after the fact.
not sufficient to safeguard assets such as Property,           FNS recently stated that the enhancement to the AMA
Plant, and Equipment, as well as Fund Balances With            system, to prevent unauthorized changes, would not be
Treasury, which together comprise approximately 95             implemented until the first quarter of FY 2001.
percent of FS assets.




                                                                                                                         31
FY 1999 Risk Management Agency/Federal Crop                   Our site visits to 11 investees and 1 grantee, which had
Insurance Corporation’s (RMA/FCIC) Financial                  received, in total, over $8 million in AARCC funding,
Statements: Unqualified Opinion                               disclosed significant problems. We found general
                                                              noncompliance with the investment agreements and
During this reporting period, we completed an audit of        evidence that most of the projects visited did not result
the FY 1999 and FY 1998 financial statements for RMA/         in any substantive job creation in rural areas or
FCIC. RMA/FCIC received an unqualified opinion in             expansion of agricultural markets.
that its financial statements fairly presented, in all
material respects, its financial position as of               We concluded that these serious problems were
September 30, 1999, and 1998, and its net costs,              attributable to the absence of effective internal
changes in net position, budgetary resources, and             administrative and accounting control policies and
reconciliation of net costs to budgetary obligations. No      procedures within the corporation, poor investment
internal control or compliance with laws and regulation       decisions, and ineffective monitoring actions by
deficiencies were identified that would have a material       AARCC. During our previous audit of AARCC’s
effect on the financial statements.                           FY 1997 financial statements, we estimated that about
                                                              75 percent of AARCC’s approximately $27 million
Rural Telephone Bank’s (RTB) FY 1999 Financial                portfolio was not performing, representing over
Statements: Unqualified Opinion                               $20 million in potential losses. Based on the results of
                                                              this audit, we believe that AARCC’s financial position
We issued an unqualified opinion on RTB’s financial           may have deteriorated even further.
statements for the year ended September 30, 1999.
Our Report on Internal Controls described four                To illustrate the decline in its investment value, we
weaknesses, one material, which dealt with                    determined that AARCC will not recoup about $6.8
improvements needed in controls over information              million (about 85 percent) of its $8 million investment in
technology. We also reported conditions with regard to        the 11 investees visited. Four of these companies had
inadequate controls over both the estimation of direct        ceased operations, and five of the companies were
loan subsidy costs (for loans made after 1991) and the        experiencing significant financial difficulties, including
allowance for loan losses (for loans made prior to 1992).     large losses and limited sales/production, to such a
We recommended that RTB reestablish controls over             degree that we questioned their ability to continue as
the estimation of the allowance for loss for loans. Our       going concerns. Further, the two remaining investees
report on compliance with laws and regulations                were primarily producing non-AARCC products even
described a material noncompliance for RTB’s financial        though they used AARCC funds to assist in the
management systems, which do not meet FMFIA,                  production of these products.
FFMIA, or OMB Circular A-127 requirements.
                                                              We recommended that no further investments be made
Assessment of AARCC Shows Management                          until actions were taken to resolve all material internal
Lacking Over High-Risk Investments                            accounting and administrative control weaknesses we
                                                              had reported. Subsequent to the release of our report,
Our assessment of the Alternative Agricultural Research       it was disclosed that AARCC would not receive any
and Commercialization Corporation’s (AARCC)                   FY 2000 appropriations. The corporation has ceased
investments was performed because of severe internal          operations; however, the disposition of its portfolio is still
administrative and accounting control deficiencies            in question.
identified during our audit of its financial statements for
FY 1997. During our review of investment files                Federal Financial Management Improvement Act
maintained by AARCC at its Washington, D.C., office,
we noted evidence of potential significant                    USDA does not currently comply with FFMIA
noncompliance with its investment agreements and              requirements. As required by law, the Department has
possible misuse of Government funds. We concluded             developed a remediation plan that includes the various
that the deficiencies noted left AARCC highly                 actions and target dates needed to achieve compliance.
susceptible to fraud, waste, and abuse.                       Incorporated into the Department’s plan are detailed
                                                              remediation plans for CCC, Rural Development, FS,
                                                              and NFC.

32
Our overall assessment is that the Department has          unauthorized users to access USDA’s most critical data
made progress in accomplishing its remediation plan        bases, which control billions of dollars in assets and
and is generally on track with intermediate dates.         make billions of dollars in payments. These
However, the plan is long-term in nature:                  unauthorized users could render the Department
Implementation of the Department’s new accounting          vulnerable to inadvertent or deliberate disclosures of
system has an estimated completion date of October 1,      sensitive data.
2002, and Rural Development’s individual remediation
plan has target dates that extend to September 2003.       We recommended that OCIO implement appropriate
                                                           encryption techniques and other available means of
                                                           securing data, and establish a departmental IT security
 INFORMATION TECHNOLOGY (IT)
                                                           program. OCIO concurred with the recommendations.
                                                           The Department has established an IT security program
Security Over USDA IT Resources Needs                      and is taking steps to implement data encryption and to
Improvement                                                strengthen access security mechanisms.

Our review disclosed material internal control             Weaknesses Exist in Rural Development’s IT
weaknesses in the Office of the Chief Information          Network
Officer/National Information Technology Center (OCIO/
NITC) security structure. Consequently, we issued a        The Rural Development mission area uses a computer-
qualified opinion to OCIO/NITC in terms of controls over   assisted network among Federal, State, and local
protection of the OCIO/NITC network, network security      offices to accomplish its mission. Our review disclosed
monitoring and intrusion detection, specified network      weaknesses in Rural Development’s IT security
security procedures, and access authorities for            program, involving lack of controls over the transmission
authorized users.                                          of sensitive data; vulnerabilities, which could allow
                                                           unauthorized access to agency data; lack of a
We recommended OCIO/NITC take action to eliminate          comprehensive network risk management program; and
the cited network vulnerabilities, and implement network   inadequate access authorities and password controls.
firewall and intrusion detection systems. We also
recommended that controls over access authorities and      We recommended Rural Development ensure sensitive
user ID’s be strengthened. OCIO agreed with all our        data are secured when transmitted, take action to
recommendations and has initiated corrective actions.      eliminate the cited network vulnerabilities, and
                                                           implement a risk management program which
Secure Data Transmission Techniques Need                   addresses the weaknesses cited in our report. We also
Strengthening                                              recommended that controls over access authorities and
                                                           passwords be strengthened. Rural Development
Our ongoing audit work relating to IT security in the      agreed with the recommendations and has initiated
Department identified a material internal control          corrective actions.
weakness. Departmental regulation requires that
Privacy Act or sensitive data (i.e., computer
                                                            THE HAZARDOUS MATERIALS
identification numbers and passwords) be encrypted if
                                                            MANAGEMENT PROGRAM (HMMP)
the information is sent over the Internet. However,
actions taken by departmental and agency officials to
implement and/or enforce this critical requirement have    Since 1988, Congress has appropriated $172.6 million
been limited.                                              to clean up hazardous waste sites on property under the
                                                           stewardship of the Department and defray associated
By sending sensitive data over the Department’s            administrative and legal costs. The funds are
network, which is accessible to all departmental           administered by HMMP and allocated to the agencies
employees and contractors, unauthorized personnel can      based on jointly assessed priorities. HMMP was
obtain sensitive departmental data. The Department’s       reorganized in 1997 to give proper emphasis to USDA’s
intranet contains information that would enable            Federal facilities compliance effort. The Hazardous




                                                                                                                 33
Materials Policy Council (HMPC) was formed in 1999 to        GOVERNMENT PERFORMANCE AND
coordinate, at an executive level, the overall USDA          RESULTS ACT (GPRA) OF 1993
environmental compliance effort.

HMMP Needs Comprehensive Performance                        Our ongoing audit will assess the Forest Service’s
Strategy, Overall Accounting Policies                       efforts to implement GPRA and will determine whether
                                                            the agency has an effective process to establish
We completed an evaluation of the Department’s              performance goals and objectives, the process used to
reorganization of HMMP in preparation for an audit that     monitor performance measures is valid, and the source
would revisit the major issues on environmental             data that supports the measures are valid and verifiable.
compliance we had reviewed over the past decade. We
recommended that the Department (1) develop a               FS’ FY 1999 Annual Report was due to Congress on
comprehensive performance strategy and procedures to        March 31, 2000. A preliminary draft showed that the
measure progress and (2) improve accountability and         agency was aware of problems in performance
monitoring of program funds.                                reporting and concluded that FS has not been able to
                                                            objectively evaluate the contribution of its annual
Although the Department continues to work out an            accomplishments, as defined by the annual
agenda and guidelines for HMMP, the program had             performance goals and measures, toward achieving
progressed to the point where we found that its strategic   either the strategic long-term goals or objectives.
plan should be reformulated to meet the criteria of the
Government Performance and Results Act, particularly        During the process of preparing the GPRA report and
in reference to the interacting compliance goals and        as a result of our ongoing audit, FS identified several
objectives of the participating agencies and the HMPC       weaknesses in the Management Attainment Reporting
leadership. We also found that agencies either did not      (MAR) process. FS identified cases of missing,
have written policies and procedures or their policies      incomplete, and inaccurate data, and concluded that the
and procedures were not adequate to manage, account         agency does not have sufficient checks in place to
for, and report on funds budgeted for hazardous waste       ensure the performance data from MAR are complete,
projects.                                                   accurate, and consistent with other data sources. Our
                                                            preliminary audit results agree with FS’ assessment of
The Department generally agreed with the                    MAR data.
recommendations. HMMP has developed a
comprehensive strategic plan to cover organizational
structure and procedures, objectives, and
measurements, together with performance goals to
support the implementation of a consistent and effective
departmental compliance program. A task force is
working to establish policies and procedures for
agencies to consistently account for hazardous waste
management funds.




34
Statistical Data


 AUDITS WITHOUT MANAGEMENT DECISION
The following audits did not have management decisions made within the 6-month limit imposed by Congress.
Narratives for new entries follow this table. An asterisk (*) indicates that an audit is pending judicial, legal, or
investigative proceedings that must be completed before the agency can act to complete management decisions.


 New Since Last Reporting Period


                                                                                                          Amount With
                                                                                    Total Value             No Mgmt.
                                                                                    at Issuance             Decision
Agency             Date Issued                        Title of Report               (in dollars)           (in dollars)

FNS                   07/29/99                    1. FSP – Cross-State                 394,025                394,025
                                                     Match (27601-9-KC)*

                      08/23/99                    2. CACFP, National                34,551,576            34,551,576
                                                     Report on Program
                                                     Abuse (27601-7-SF)

                      09/15/99                    3. Regional Food Stamp            11,572,867              3,680,731
                                                     E&T Program
                                                     (27601-8-At)

FSA                   08/10/99                    4. Evaluation of Security            521,606                         0
                                                     and Repayment of
                                                     Commodity Loans
                                                     (03006-13-Ch)

OCFO                  09/29/99                    5. FY1998 NFC Review of                     0                        0
                                                     Internal Control Structure
                                                     (11401-4-FM)

Multiagency           07/09/99                    6. Review of the Department’s               0                        0
                                                     Final Action Process
                                                     (50801-1-HQ)

                      09/29/99                    7. Effective Implementation                 0                        0
                                                     of FFIS Will Reduce USDA’s
                                                     Many Financial Management
                                                     Problems (50801-7-FM)

RBS                   10/01/99                    8. B&I Loan - Indiana                595,511                595,511
                                                     Farms (34099-3-Ch)

RHS                   04/20/99                    9. RRH Program -                     346,685                346,685
                                                     Owner/Manager,
                                                     Olympia, WA
                                                     (04801-6-SF)



                                                                                                                           35
                                                                                                           Amount With
                                                                                    Total Value              No Mgmt.
                                                                                    at Issuance              Decision
Agency             Date Issued                        Title of Report               (in dollars)            (in dollars)

                      06/03/99                    10. RRH Program - Medlock              73,865                73,865
                                                      Southwest Management
                                                      Corporation (04099-7-Te)

                      09/23/99                    11. RRH Initiative - Calhoun      12,931,081                       0
                                                      Property Management
                                                      (04801-11-Te)

RMA                   08/05/99                    12. CY 1998 Potato Insurance         615,771                615,771
                                                      Claims in Gaines County, TX
                                                      (05099-2-Te)

                      09/30/99                    13. Servicing of CAT                         0                     0
                                                      Policies (05099-6-KC)


 Previously Reported but Not Yet Resolved


These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the
recommendations where management decisions had not been reached have been reported in previous Semiannual
Reports to Congress. Agencies have been informed of actions that must be taken to reach management decision,
but, for various reasons, the actions have not been completed. The appropriate Under and Assistant Secretaries
have been notified of those audits without management decisions.

AARCC                 09/30/96                    14. AARCC Cooperative Agreement              0                     0
                                                      With Agro-Fibers, Inc. (34099-1-At)

ARS                   02/08/99                    15. J.A. Jones Management         160,233                   160,233
                                                      Services CY’s 1994 and
                                                      1995 Incurred Costs (02017-4-At)

CR                    09/30/98                    16. Evaluation of CR Efforts                 0                     0
                                                      To Reduce Complaints
                                                      Backlog (60801-1-HQ)

                      03/24/99                    17. Evaluation of CR Management              0                     0
                                                      of Settlement Agreements
                                                      (60801-2-HQ)

CSREES                03/27/97                    18. Use of 4-H Program Funds -          5,633                      0
                                                      University of Illinois
                                                      (13011-1-Ch)

                      03/31/98                    19. National Research Initiative 32,757,862              32,757,862
                                                      Competitive Grants
                                                      Program (13601-1-At)



36
                                                                          Amount With
                                                         Total Value        No Mgmt.
                                                         at Issuance        Decision
Agency   Date Issued       Title of Report               (in dollars)      (in dollars)

           09/30/98    20. Use of CSREES Grant            1,424,983        1,239,314
                           Funds by Prairie View
                           A&M (13011-2-Te)

FNS        09/22/97    21. CACFP - Sponsor                   56,296           56,296
                           Abuses (27601-7-KC)*

           12/07/98    22. CACFP - Family                   338,100          338,100
                           Day Care Services, Inc. -
                           West Palm Beach, FL
                           (27601-7-At)*

FS         07/18/96    23. FY1995 FS Financial         1,150,183,750    1,150,183,750
                           Statements
                           (08401-4-At)

           09/30/96    24. Real and Personal                       0               0
                           Property Issues
                           (08801-3-At)

           03/31/97    25. Research Cooperative             468,547          468,547
                           and Cost Reimbursable
                           Agreements (08601-18-SF)*

           07/13/98    26. FY1997 FS Financial                     0               0
                           Statements (08401-7-At)

           08/16/98    27. Humboldt/Toiyabe                        0               0
                           National Forest Land
                           Adjustment Program
                           (08003-2-SF)

           08/19/98    28. Review of FS’ Retroactive               0               0
                           Redistribution (08801-4-HQ)

           08/26/98    29. Improvements on the           38,000,000       38,000,000
                           Zephyr Cove Land
                           Exchange (08003-4-SF)*

           09/24/98    30. FS Assistance Agreements 7,098,026              6,124,896
                           With Nonprofit Organizations
                           (08801-2-Te)

           01/05/99    31. Timber Sale Environmental               0               0
                           Analysis Requirements
                           (08801-10-At)



                                                                                        37
                                                                    Amount With
                                                     Total Value      No Mgmt.
                                                     at Issuance      Decision
Agency   Date Issued      Title of Report            (in dollars)    (in dollars)

           02/23/99    32. FY1998 FS Financial                 0             0
                           Statements (08401-8-At)

FSA        09/30/93    33. Disaster Payments          5,273,795      1,482,759
                           Mitchell County, GA
                           (03097-2-At)*

           09/07/95    34. A&B Professional             628,976       628,976
                           Consulting, Inc.
                           (03004-1-At)

           09/18/95    35. Management of the         75,175,410       909,437
                           Dade County, FL,
                           FSA Office (03006-1-At)

           09/28/95    36. Disaster Assistance        1,805,828      1,805,828
                           Payments, Lauderdale,
                           TN (03006-4-At)*

           01/02/96    37. 1993 Crop Disaster         2,469,829      2,418,167
                           Payments Brooks/
                           Jim Hogg Cos., TX
                           (03006-1-Te)*

           05/02/96    38. Disaster Assistance        2,177,640      2,145,533
                           Program - 1994,
                           Thomas County, GA
                           (03006-13-At)*

           09/18/96    39. Emergency Feed               626,182       115,425
                           Program in TX
                           (03601-7-Te)*

           09/30/96    40. 1994 Disaster              2,666,383      2,601,692
                           Assistance Program -
                           ME (030601-1-Hy)

           04/30/98    41. Reeves County Office       1,365,640       421,152
                           Operation - TX
                           (03801-36-Te)

           09/30/98    42. Wool and Mohair           2,432,112,      2,432,112
                           Payment Limitation
                           in Val Verde County,
                           TX (03099-20-Te)*




38
                                                                        Amount With
                                                         Total Value      No Mgmt.
                                                         at Issuance      Decision
Agency        Date Issued       Title of Report          (in dollars)    (in dollars)


                03/30/99    43. Payment Limitation -        881,924        881,924
                                Mitchell County, GA
                                (03006-20-At)

Multiagency     02/27/97    44. Farm Loan Programs -               0             0
                                Civil Rights Complaint
                                System (50801-2-HQ)

                03/25/98    45. Verification of Data         27,259         27,259
                                Input Into NFC
                                Payroll/Personnel
                                System (50099-11-FM)

                02/01/99    46. FY 1998 Rural                      0             0
                                Development Financial
                                Statements
                                (50401-28-FM)

                02/22/99    47. FY 1998 USDA                       0             0
                                Consolidated Financial
                                Statements
                                (50401-30-FM)

                07/16/98    48. FY 1997 USDA                       0             0
                                Financial Statements
                                (50401-24-FM)

RHS             08/10/98    49. Self-Help Housing                  0             0
                                Program - Grizzly
                                Hollow Project, Galt,
                                CA (04801-2-SF)*

                01/08/99    50. RRH Program - Dujardin      195,694        195,694
                                Property Management,
                                Inc., Everett, WA
                                (04801-5-SF)*

                02/13/99    51. RRH - Initiative in         109,653        109,653
                                NC (04801-7-At)

                03/12/99    52. RRH - Nationwide             82,324         81,646
                                Initiative - PA
                                (04801-3-Hy)

                03/25/99    53. Guaranteed Rural         139,220,122       215,030
                                Housing Loan
                                Program (04601-2-At)


                                                                                     39
                                                                     Amount With
                                                      Total Value      No Mgmt.
                                                      at Issuance      Decision
Agency   Date Issued       Title of Report            (in dollars)    (in dollars)

           03/31/99    54. RRH - Nationwide              233,958       233,958
                           Initiative in NE -
                           Bosley Management,
                           Inc., Sheridan, WY
                           (04801-3-KC)

RMA        01/31/94    55. Tobacco Indemnity              88,631         88,631
                           Payments, Mitchell
                           County, GA (05099-22-At)

           09/30/97    56. Crop Insurance on          15,082,744       444,210
                           Fresh Market Tomatoes
                           (05099-1-At)

           03/03/98    57. Transfer of CAT                      0             0
                           Policies to Reinsured
                           Companies
                           (05601-1-KC)

           03/10/98    58. FY 1998 FCIC Financial               0             0
                           Statements Report on
                           Management Issues
                           (05401-6-FM)

           04/10/98    59. Crop Insurance Claims         126,787         78,986
                           (05601-1-KC)

           07/14/98    60. Quality Control for                  0             0
                           Crop Insurance
                           Determinations
                           (05099-2-KC)

           12/16/98    61. Crop Insurance on           3,963,468      3,963,468
                           Nurseries (05099-2-At)

           03/10/99    62. FY 1998 FCIC Financial               0             0
                           Statements Report on
                           Management Issues
                           (05099-2-KC)

           03/16/99    63. Preventive Planting           158,430       139,612
                           of 1996 Insured Crops
                           (05601-5-Te)




40
 Audits Without Management Decision - Narrative for New Entries


1. FSP – Cross-State Match, Issued July 29, 1999             4. Evaluation of Security and Repayment of
                                                                Commodity Loans, Issued August 10, 1999
We performed a cross-State computer match of FSP
within Nebraska, Kansas, Iowa, Missouri, Indiana,            FSA does not document the time of day that commodity
Illinois, and Wisconsin of program participants’ social      spot-checks are performed, loan payments are
security numbers to determine if they were receiving         received, and marketing authorizations are requested,
food stamp benefits in more than one State during the        and county committees were not considering such
same months. We identified 147 food stamp                    information in determining if producers acted in good
participants who received benefits in more than 1 State      faith when violations were found. FSA agreed to issue
simultaneously, resulting in overissuances of about          to all county offices a notice that instructs personnel on
$99,000. Administrative action cannot be taken until         procedures to follow in dealing with program violations.
pending investigations are completed.                        We await supporting documentation for the proposed
                                                             management decisions.
2. CACFP, National Report on Program Abuse,
   Issued August 23, 1999                                    5. FY 1998 NFC Review of Internal Control
                                                                Structure, Issued September 29, 1999
This report presented our analysis of audits and
investigations completed as part of the nationwide           During FY 1998, in response to our audit, OCFO began
initiative known as Operation “Kiddie Care.” We found        comprehensive, time-phased corrective actions. Our
CACFP had attracted opportunistic sponsors who took          review found that material weaknesses remained in the
advantage of a program delivery system that placed           areas of accounting adjustments and reconciliations,
primary controls of CACFP in their hands. FNS needs          systems documentation, and conformance with the U.S.
to study alternative methods of delivering a meal            Standard General Ledger. We are working with OCFO
program to children and adults to address the problems       to obtain management decision.
we found in the private, nonprofit organizations included
in our review. We made 23 recommendations to                 6. Review of the Department’s Final Action
eliminate structural program flaws, strengthen internal         Process, Issued July 9, 1999
controls, and clarify program requirements in CACFP.
We have accepted management decision on six of               Our evaluation disclosed that, in numerous instances,
these recommendations. Ten recommendations will be           corrective actions on audit recommendations have not
resolved upon publication of the proposed CACFP              been implemented in a timely manner. We
integrity rule currently in the clearance process. FNS       recommended that departmental regulations be
has responded to us on the remaining recommen-               amended to incorporate a formal process for elevating
dations, and we are working with the agency to resolve       audits to the Secretariat level where final action has not
them.                                                        been completed in the mandated 1-year timeframe.
                                                             OCFO has not agreed to amend departmental
3. Regional Food Stamp Employment and Training               regulations, stating ongoing interaction between OCFO
   Program, Issued September 15, 1999                        and the agencies meets the intent of the
                                                             recommendation.
This audit identified material deficiencies in the Georgia
State agency’s procedures for charging costs to the          7. Effective Implementation of FFIS Will Reduce
Employment and Training grant, resulting in cost                USDA’s Many Financial Management Problems,
adjustments of $4.6 million for FY 1998. The cost               Issued September 29, 1999
deficiencies continued in FY 1999. The FNS regional
office must complete an indepth validation review of the     Since 1992, we have reported on the many severe and
State agency’s 1999 cost claims, make appropriate            longstanding financial management problems in the
fiscal recoveries, and confirm that the State has            Department. To aid in correcting these problems, the
implemented sufficient corrective measures to prevent        Department is implementing FFIS. Our current review
further overclaims.                                          disclosed that several existing weaknesses and prior

                                                                                                                     41
decisions by OCFO to interface existing feeder systems      11. RRH Initiative – Calhoun Property Management,
have resulted in FFIS implementation problems. OCFO             Issued September 23, 1999
has made numerous and substantive changes to correct
the serious impediments to the effective implementation     Results of the audit were referred for investigation.
of FFIS. However, OCFO is unable to provide                 RHS and Rural Development have been instructed to
estimated timeframes for implementing our                   take no further action pending completion of the
recommendation related to consolidating, integrating,       investigation.
and reengineering the feeder systems. The agency
plans to have estimated timeframes after a contractor       12. CY 1998 Potato Insurance Claims in Gaines
completes an independent analysis.                              County, TX, Issued August 5, 1999

8. B & I Loan - Indiana Farms, Issued October 1,            The insured received $777,317 for 1998 crop year
   1999                                                     losses on 490 acres of potatoes. We found that
                                                            insurance policy provisions were violated because the
We recommended that Rural Development recover the           potato seeds used for planting were not adapted to the
$595,511 paid on the loan guarantee, and its officials      area. The seed purchased from a firm in North Dakota
have agreed. Due to the ongoing criminal investigation,     did not produce a crop. We recommended recovery of
administrative action cannot be taken at this time.         $615,771 because the potato seed variety on 100 acres
                                                            might have been used in past years. RMA has agreed
9. RRH Program – Owner/Manager, Olympia, WA,                with our recommendation to recover funds but has not
   Issued April 20, 1999                                    established a claim against the insured.

The results of the audit were referred for investigation.   13. Servicing of CAT Policies, Issued September 30,
RHS and Rural Development have been instructed to               1999
take no further action pending completion of the
investigation.                                              This audit followed up on a previous review of the
                                                            transfer of catastrophic risk protection (CAT) policies to
10. RRH Program – Medlock Southwest                         reinsured companies. The current audit identified
    Management Corporation, Issued June 3, 1999             similar issues. These problems included inadequate
                                                            servicing provided to limited-resource producers, the
We determined the management company misused                CAT program’s underperformance in meeting producer
$73,865 in reserve funds. Instead of depositing the         needs, and RMA’s insufficient oversight. In its response
money in restrictive reserve accounts for the properties,   to the final report, the agency did not provide sufficient
as required, the management company deposited it into       information to reach management decision on six
the operating accounts of the properties and used it for    recommendations. After numerous informal
unauthorized purposes. In addition, we determined the       discussions, a satisfactory response was provided for
bank released $73,865 from nine properties’ supervised      two of the six recommendations.
bank reserve accounts to the general partner without
obtaining RHS authorization. We recommended that
RHS consult with OGC and determine the appropriate
collection effort to recover $73,865 from the
management company and the bank. Rural
Development has issued demand letters to the
management company and bank; however, the funds
have not been recovered nor has an account receivable
been established. We continue to work with agency
officials to resolve this matter.




42
 Indictments and Convictions

Between October 1. 1999, and March 31, 2000, OIG            Indictments and Convictions
completed 253 investigations. We referred 171 cases         October 1, 1999 - March 31, 2000
to Federal, State, and local prosecutors for their
decision.                                                   Agency           Indictments         Convictions*

During the reporting period, our investigations led to      AMS                           23                   19
241 indictments and 208 convictions. The period of          APHIS                          3                    6
time to obtain court action on an indictment varies         ARS                            3                    0
widely; therefore, the 208 convictions do not necessarily   FAS                            3                    2
relate to the 241 indictments. Fines, recoveries/           FNS                          146                  139
collections, restitutions, claims established, cost         FSA                           34                   28
avoidance, and administrative penalties resulting from      FSIS                          12                    7
our investigations totaled about $126.4 million.            FS                             0                    1
                                                            NRCS                           5                    2
The following is a breakdown, by agency, of indictments     RHS                            3                    3
and convictions for the reporting period.                   RMA                            9                    1
                                                                                         ___                  ___
                                                            Totals                       241                  208

                                                            *
                                                                This category includes pretrial diversions.




                                                                                                                    43
 The Office of Inspector General Hotline


The OIG Hotline serves as a national receiving point for
reports from both employees and the general public of
suspected incidents of fraud, waste, mismanagement,
and abuse in USDA programs and operations. During
this reporting period, the OIG Hotline received
839 complaints, which included allegations of participant
fraud, employee misconduct, and mismanagement, as
well as opinions about USDA programs. Figure 3
displays the volume and type of the complaints we
received, and figure 4 displays the disposition of those
complaints.




Figure 3                                                    Figure 4

Hotline Complaints                                          Disposition of Complaints
October 1, 1999, to March 31, 2000                          October 1, 1999, to March 31, 2000
(Total = 839)
                                                                                    Referred to
                                     Reprisal                   Referred to       USDA Agencies     Complaint
                                       0      Bribery         FNS for Tracking     for Response     Referred to
                      Participant                1                  201                 395        State Agency
                        Fraud                                                                           13
                         479




                                                  Health/
  Waste/                                          Safety
Management                                          20
                                      Opinion/                Referred to
    82           Employee           Information             USDA or Other                             Referred to
                 Misconduct              94                  Agencies for Filed Without Referred to Other Law
                    163
                                                             Information-    Referral-  OIG Audit or Enforcement
                                                            No Response Insufficient Investigations Agencies
                                                               Needed      Information for Review         9
                                                                 152            29          40




44
 Freedom of Information Act (FOIA) and Privacy Act (PA) Requests for the Period
 October␣ 1, 1999, to March␣ 31, 2000

Number of FOIA/PA Requests Received              263

Number of FOIA/PA Requests Processed:            282

 Number of Requests Granted in Full        171
 Number of Requests Granted in Part         55
 Number of Requests Not Granted             39

Reasons for Denial:

  No Records Available                   8
  Requests Denied in Full               18
  Referrals                             15
_______________________________________________

Requests for OIG Reports From Congress
and Other Government Agencies

  Received                              82
  Processed                             88
_______________________________________________

Appeals Processed                                   6

  Appeals Completely Reversed            0
  Appeals Completely Upheld              5
  Appeals Partially Reversed             0
  Appeals Withdrawn                      1
_______________________________________________

Number of OIG Reports Released                   254
in Response to Requests

NOTE: A request may involve more than one report.




                                                                                  45
Appendix I


                                               INVENTORY OF AUDIT REPORTS ISSUED
                                                WITH QUESTIONED COSTS AND LOANS

                                                                                       DOLLAR VALUES

                                                                       QUESTIONED              UNSUPPORTED a
                                                            NUMBER   COSTS AND LOANS          COSTS AND LOANS

A. FOR WHICH NO MANAGEMENT                                    57       $246,748,747             $70,853,432
   DECISION HAD BEEN MADE
   BY OCTOBER 1, 1999

B. WHICH WERE ISSUED DURING                                   22       1,945,037,798             20,966,889
   THIS REPORTING PERIOD

       TOTALS                                                 79      $2,191,786,545            $91,820,321

C. FOR WHICH A MANAGEMENT                                     22
   DECISION WAS MADE DURING
   THIS REPORTING PERIOD

       (1) DOLLAR VALUE OF
           DISALLOWED COSTS

             RECOMMENDED FOR RECOVERY                                   $36,944,564              $2,535,466

             NOT RECOMMENDED FOR RECOVERY                               $28,833,903

       (2) DOLLAR VALUE OF                                               12,536,119               2,113,770
           COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT                                    57       2,115,282,363             87,171,085
   DECISION HAS BEEN MADE BY
   THE END OF THIS REPORTING
   PERIOD

       REPORTS FOR WHICH NO                                   41        199,477,037              66,205,860
       MANAGEMENT DECISION WAS
       MADE WITHIN 6 MONTHS
       OF ISSUANCE

a
    Unsupported values are included in questioned values.




46
Appendix II


                          INVENTORY OF AUDIT REPORTS ISSUED
                 WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                    NUMBER      DOLLAR VALUE

A. FOR WHICH NO MANAGEMENT            22          $253,312,909
   DECISION HAD BEEN MADE
   BY OCTOBER 1, 1999

B. WHICH WERE ISSUED DURING            6           607,861,077
   THE REPORTING PERIOD

  TOTALS                              28          $861,173,986

C. FOR WHICH A MANAGEMENT              6
   DECISION WAS MADE DURING
   THE REPORTING PERIOD

  (1) DOLLAR VALUE OF                              $35,117,183
      DISALLOWED COSTS

  (2) DOLLAR VALUE OF                               13,553,804
      COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT            22           812,502,999
   DECISION HAS BEEN MADE BY
   THE END OF THE REPORTING
   PERIOD

  REPORTS FOR WHICH NO                17           204,770,383
  MANAGEMENT DECISION WAS
  MADE WITHIN 6 MONTHS
  OF ISSUANCE




                                                                        47
Appendix III


                                         SUMMARY OF AUDIT REPORTS RELEASED
                                      BETWEEN OCTOBER 1, 1999, AND MARCH 31, 2000

DURING THE 6-MONTH PERIOD BETWEEN OCTOBER 1, 1999, AND MARCH 31, 2000, THE OFFICE OF
INSPECTOR GENERAL ISSUED 59 AUDIT REPORTS, INCLUDING 7 PERFORMED BY OTHERS.

THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:

                                                                    QUESTIONED    UNSUPPORTEDa     FUNDS BE
                                                          AUDITS      COSTS          COSTS          PUT TO
AGENCY                                                   RELEASED   AND LOANS      AND LOANS      BETTER USE

AGRICULTURAL MARKETING SERVICE           1                          $28,005,521
AGRICULTURAL RESEARCH SERVICE            2
FARM SERVICE AGENCY                      5                           $2,295,051                    $2,794,586
RURAL HOUSING SERVICE                    2                               $1,500
RISK MANAGEMENT AGENCY                   4                           $5,971,666
FOREST SERVICE                           4
RURAL UTILITIES SERVICE                  4                      $1,874,577,197                   $602,260,826
NATURAL RESOURCES CONSERVATION
  SERVICE                                1                            $784,562
OFFICE OF THE CHIEF FINANCIAL OFFICER    1
COOPERATIVE STATE RESEARCH,
  EDUCATION, AND EXTENSION SERVICE       1                                                          $128,461
OFFICE OF OPERATIONS                     2                              $82,951
FOOD AND NUTRITION SERVICE              11                          $11,047,941      $315,375       $643,600
ANIMAL AND PLANT HEALTH
  INSPECTION SERVICE                     2                               $2,851
RURAL BUSINESS-COOPERATIVE SERVICE       3                           $1,141,749
ALTERNATIVE AGRICULTURAL RESEARCH
  AND COMMERCIALIZATION CORPORATION      1
MULTIAGENCY                             10                          $21,126,809    $20,651,514     $2,033,604
CIVIL RIGHTS                             2
RURAL DEVELOPMENT                        2
OFFICE OF THE CHIEF INFORMATION OFFICER  1

TOTALS                                                     59   $1,945,037,798     $20,966,889   $607,861,077

TOTAL COMPLETED:
  SINGLE AGENCY AUDIT                                      42
  MULTIAGENCY AUDIT                                         8
  SINGLE AGENCY EVALUATION                                  7
  MULTIAGENCY EVALUATION                                    2

TOTAL RELEASED NATIONWIDE                                  59

TOTAL COMPLETED UNDER CONTRACTb                             7

TOTAL SINGLE AUDIT ISSUEDc                                  3
a
  Unsupported values are included in questioned values
b
  Indicates audits performed by others
c
  Indicates audits completed as Single Audit

48
                           AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                  BETWEEN OCTOBER 1, 1999, AND MARCH 31, 2000

                                                                      QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                            COSTS          COSTS        PUT TO
RELEASE DATE      TITLE                                               AND LOANS      AND LOANS    BETTER USE


AGRICULTURAL MARKETING SERVICE

 01-099-0001-SF   DOMESTIC ORIGIN PROVISIONS OF THE COMMODITY         $28,005,521
 2000/02/15       PURCHASE PROGRAM

   TOTAL: AGRICULTURAL MARKETING SERVICE                          1   $28,005,521

AGRICULTURAL RESEARCH SERVICE

 02-017-0015-HY   BIONETICS CORP. FY 1994 & 1995 INCURRED COST
 1999/12/03       AUDITS
 02-017-0016-HY   BIONETICS CORP-1996 INCURRED COST AUDIT
 2000/03/06

   TOTAL: AGRICULTURAL RESEARCH SERVICE                           2

FARM SERVICE AGENCY

 03-006-0021-AT   PAYMENT LIMITATION REVIEW - THOMAS COUNTY, GA         $661,072
 2000/01/13
 03-099-0023-TE   PAYMENT LIMITATION IN ST LANDRY PRISH, LA            $1,263,243
 2000/01/14
 03-099-0032-KC   CONTROLS OVER ADMINISTRATIVE PROGRAM
 1999/12/22       OPERATIONS
 03-601-0015-KC   EMERGENCY CONSERVATION PROGRAM                        $155,911                    $2,794,586
 2000/03/31
 03-601-0035-TE   1996 FAIR ACT PROVISIONS AFFECTING FARM LOAN          $214,825
 1999/12/14       PROGRAMS LOAN SERVICING

   TOTAL: FARM SERVICE AGENCY                                     5    $2,295,051                   $2,794,586

RURAL HOUSING SERVICE

 04-099-0009-TE   VERIFICATION OF MEDLOCK MANAGED PROPERTY                $1,500
 1999/12/14       EXPENSES
 04-601-0005-SF   FARM LABOR HOUSING PROGRAM - NATIONWIDE
 2000/03/31       REVIEW

   TOTAL: RURAL HOUSING SERVICE                                   2       $1,500

RISK MANAGEMENT AGENCY

 05-099-0001-HQ   OIG-RMA ROUNDTABLE MEETING
 2000/03/31
 05-099-0008-KC   STANDARD REINSURANCE AGREEMENT (SRA)                 $5,971,666
 2000/03/31       REPORTING REQUIREMENTS
 05-401-0007-FM   FY 1999 FCIC FINANCIAL STATEMENTS
 2000/02/11
 05-401-0008-FM   FY 1999 FCIC FINANCIAL STATEMENTS
 2000/03/30       REPORT ON MANAGEMENT ISSUES

   TOTAL: RISK MANAGEMENT AGENCY                                  4    $5,971,666

FOREST SERVICE

 08-401-0009-AT   FY 1999 FS FINANCIAL STATEMENTS
 2000/02/25
 08-801-0006-SF   LAND ADJUSTMENT PROGRAM - SAN BERNARDINO
 2000/01/19       NATIONAL FOREST
 08-801-0013-AT   NATIONAL FIRE CACHE SYSTEM
 2000/03/31
 08-801-0014-AT   FS CONSULTING SERVICES FOR FY 1999
 2000/01/28

   TOTAL: FOREST SERVICE                                          4


                                                                                                            49
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                    BETWEEN OCTOBER 1, 1999, AND MARCH 31, 2000

                                                                        QUESTIONED      UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                              COSTS            COSTS        PUT TO
RELEASE DATE       TITLE                                                AND LOANS        AND LOANS    BETTER USE


RURAL UTILITIES SERVICE

 09-016-0001-TE    TELEPHONE LOAN PROGRAM POLICIES AND                 $1,874,577,197                 $602,260,826
 2000/02/11        PROCEDURES
 09-401-0005-FM    MONITORING OF FY 1999 RURAL TELEPHONE BANK
 2000/02/25        FINANCIAL STATEMENT AUDIT
 09-401-0006-FM    RURAL TELEPHONE BANK FY 1999 REPORT ON
 2000/03/30        MANAGEMENT ISSUES
 09-601-0001-TE    ELECTRIC GENERATION AND DISTRIBUTION BORROWER
 2000/03/13        INVESTMENTS

     TOTAL: RURAL UTILITIES SERVICE                                4   $1,874,577,197                 $602,260,826

NATURAL RESOURCES CONSERVATION SERVICE

 10-601-0001-TE    NRCS CONTRACTING, PROCUREMENT, AND                       $784,562
 2000/03/31        DISBURSEMENT ACTIVITIES

     TOTAL: NATURAL RESOURCES CONSERVATION SERVICE                 1        $784,562

OFFICE OF THE CHIEF FINANCIAL OFFICER

 11-401-0006-FM    AGREED-UPON PROCEDURES: RET., HEALTH AND LIFE
 1999/12/08        INS., & HEADCOUNT INFO SUBMITTED TO OPM

     TOTAL: OFFICE OF THE CHIEF FINANCIAL OFFICER                  1

COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE

 13-011-0002-AT    EXTENSION FUNDS – SC STATE UNIVERSITY                                                 $128,461
 2000/03/30

     TOTAL: COOPERATIVE STATE RESEARCH, EDUCATION                  1                                     $128,461
            AND EXTENSION SERVICE

OFFICE OF OPERATIONS

 23-017-0008-HY    FU ASSOCIATES INCURRED COST AUDIT FOR                     $82,951
 1999/12/08        FY ENDED DECEMBER 1996 THRU 1998
 23-099-0001-FM    SECURITY OVER DATA TRANSMISSION NEEDS
 2000/03/30        IMPROVEMENT

     TOTAL: OFFICE OF OPERATIONS                                   2         $82,951

FOOD AND NUTRITION SERVICE

 27-010-0003-KC    CACFP - NATIONAL INITIATIVE TO                           $319,279      $313,711
 2000/03/22        IDENTIFY PROBLEM SPONSORS
 27-010-0013-CH    NSLP-PROCUREMENT AND MEAL ACCOUNTABILITY IN                                           $143,740
 2000/03/22        DETROIT PUBLIC SCHOOLS
 27-010-0019-SF    SMART START - SUMMER FEEDING PROGRAM                     $506,438                     $499,860
 1999/11/18
 27-016-0003-CH    WIC FOOD DELIVERY SYSTEMS - VENDOR COMPLIANCE
 2000/01/07
 27-017-0019-HY    ABT ASSOCIATES- FY 95 THROUGH FY 97 INCURRED               $1,664        $1,664
 1999/12/09        COST AUDIT
 27-099-0004-KC    FOOD STAMP PROGRAM PARTICIPATION                         $122,794
 2000/01/31        BY BANNED RETAILERS
 27-099-0009-HY    AUDIT OF STATE OPTION FOOD STAMP                      $10,097,066
 1999/12/14
 27-401-0017-HY    FY 1999 FNS FINANCIAL STATEMENTS
 2000/02/01
 27-601-0009-AT    CHILD AND ADULT CARE FOOD PROGRAM                            $700
 2000/01/13



50
                           AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                  BETWEEN OCTOBER 1, 1999, AND MARCH 31, 2000

                                                                       QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                             COSTS          COSTS        PUT TO
RELEASE DATE      TITLE                                                AND LOANS      AND LOANS    BETTER USE


 27-601-0021-CH   CHILD AND ADULT CARE FOOD PROGRAM IN OHIO
 2000/03/03
 27-801-0005-TE   LOUISIANA EBT SYSTEM DEVELOPMENT
 2000/03/31

   TOTAL: FOOD AND NUTRITION SERVICE                              11   $11,047,941     $315,375       $643,600

ANIMAL AND PLANT HEALTH INSPECTION SERVICE

 33-004-0001-AT   PLANT PROTECTION AND QUARANTINE ACTIVITIES IN            $2,851
 2000/03/07       FLORIDA
 33-801-0003-AT   USDA’S EFFORTS TO PROTECT MARINE MAMMALS
 1999/10/27

   TOTAL: ANIMAL AND PLANT HEALTH INSPECTION SERVICE              2        $2,851

RURAL BUSINESS-COOPERATIVE SERVICE

 34-004-0005-HY   EVALUATION OF PROCUREMENT OPERATIONS -                 $546,238
 2000/02/18       VIRGINIA STATE OFFICE
 34-017-0001-KC   PRAIRIE PUBLIC BROADCASTING, INC. INDIRECT
 2000/01/05       COST RATE
 34-099-0003-CH   BUSINESS AND INDUSTRY LOAN - INDIANA FARMS             $595,511
 1999/10/01       PORK MARKETING

   TOTAL: RURAL BUSINESS-COOPERATIVE SERVICE                      3     $1,141,749

ALTERNATIVE AGRICULTURAL RESEARCH AND COMMERCIALIZATION CORPORATION

 37-099-0001-FM   ASSESSMENT OF AARC CORPORATION INVESTMENTS
 1999/11/30

   TOTAL: ALTERNATIVE AGRICULTURAL RESEARCH AND                    1
   TOTAL: COMMERCIALIZATION CORPORATION

MULTIAGENCY

 50-018-0008-HY   COMMONWEALTH OF PENNSYLVANIA SINGLE AUDIT
 2000/02/15       A-133, STATE FISCAL YEAR ENDED JUNE 30, 1998
 50-020-0045-KC   A-128 ROSEBUD SIOUX TRIBE                                  $587
 1999/10/19       (FY 9/95), ROSEBUD, SD
 50-020-0071-HY   D.C. DEPARTMENT OF HUMAN SERVICES                       $92,514       $92,514
 1999/12/10       A-128, SEPT. 30, 1994, 1995 AND 1996
 50-099-0003-HQ   REVIEW OF THE YEAR 2000 DAY ONE STRATEGIES
 1999/12/02
 50-099-0008-SF   PUBLIC FINANCIAL DISCLOSURE REPORTING SYSTEM
 2000/03/15       FOR FOREST SERVICE EMPLOYEES
 50-401-0035-FM   FY 1999 USDA CONSOLIDATED FINANCIAL
 2000/02/22       STATEMENTS
 50-601-0007-KC   CRP APPEAL PROCESS SIGNUP 15                                                       $2,033,604
 2000/03/07
 50-601-0008-KC   CONSERVATION RESERVE PROGRAM ACREAGE
 2000/01/25       ENROLLMENTS UNDER SIGNUP 18
 50-801-0001-TE   URBAN RESOURCES PARTNERSHIP                          $21,033,708   $20,559,000
 1999/11/02
 50-801-0008-AT   EVALUATION OF USDA’S REORGANIZATION OF ITS
 2000/03/21       HAZARDOUS MATERIALS MANAGEMENT PROGRAM

   TOTAL: MULTIAGENCY                                             10   $21,126,809   $20,651,514     $2,033,604




                                                                                                             51
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                    BETWEEN OCTOBER 1, 1999, AND MARCH 31, 2000

                                                                          QUESTIONED     UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                                COSTS           COSTS        PUT TO
RELEASE DATE        TITLE                                                 AND LOANS       AND LOANS    BETTER USE


CIVIL RIGHTS

 60-801-0003-HQ     EVALUATION REPORT FOR THE SECRETARY ON CIVIL
 2000/03/10         RIGHTS ISSUES - PHASE 7
 60-801-0004-HQ     STATUS OF RECOMMENDATIONS MADE IN PRIOR
 2000/03/10         EVALUATIONS OF PROGRAM COMPLAINTS

     TOTAL: CIVIL RIGHTS                                           2

RURAL DEVELOPMENT

 85-099-0001-FM     REVIEW OF RURAL DEVELOPMENT’S FEDERAL
 2000/03/30         INFORMATION SYSTEM CONTROLS
 85-401-0001-FM     FY 1999 RURAL DEVELOPMENT FINANCIAL
 2000/02/22         STATEMENTS

     TOTAL: RURAL DEVELOPMENT                                      2

CHIEF INFORMATION OFFICER

 88-099-0001-FM     NATIONAL INFORMATION TECHNOLOGY CENTER
 1999/12/10         GENERAL CONTROLS - FY 1998

     TOTAL: CHIEF INFORMATION OFFICER                              1


     TOTAL: RELEASE - NATIONWIDE                                   59   $1,945,037,798   $20,966,889   $607,861,077




52
Abbreviations of Organizations
AARCC    Alternative Agricultural Research and Commercialization Corporation
AMS      Agricultural Marketing Service
APHIS    Animal and Plant Health Inspection Service
ARS      Agricultural Research Service
BATF     Bureau of Alcohol, Tobacco, and Firearms
CCC      Commodity Credit Corporation
CES      Cooperative Extension Service
CR       Office of Civil Rights
CSREES   Cooperative State Research, Education, and Extension Service
DOJ      Department of Justice
DCDHS    District of Columbia Department of Human Services
EPA      Environmental Protection Agency
FAS      Foreign Agricultural Service
FBI      Federal Bureau of Investigation
FCIC     Federal Crop Insurance Corporation
FDA      U.S. Food and Drug Administration
FNS      Food and Nutrition Service
FS       Forest Service
FSA      Farm Service Agency
FSIS     Food Safety and Inspection Service
GAO      U.S. General Accounting Office
HMPC     Hazardous Materials Policy Council
IRS      Internal Revenue Service
NFC      National Finance Center
NRCS     Natural Resources Conservation Service
OCFO     Office of the Chief Financial Officer
OGC      Office of the General Counsel
OIG      Office of Inspector General
OMB      Office of Management and Budget
RBS      Rural Business-Cooperative Service
RHS      Rural Housing Service
RMA      Risk Management Agency
RUS      Rural Utilities Service
SCSU     South Carolina State University
TDHS     Tennessee Department of Human Services
USDA     U.S. Department of Agriculture
U.S. DEPARTMENT OF AGRICULTURE
OFFICE OF INSPECTOR GENERAL
STOP 2309
1400 INDEPENDENCE AVE., SW
WASHINGTON, DC 20250-2309




                                 www.usda.gov/oig
